<html>
<title> - THE FISCAL YEAR 2016 EPA BUDGET</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                    THE FISCAL YEAR 2016 EPA BUDGET

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                AND THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2015

                               __________

                           Serial No. 114-11
                           
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                              ____________
                              
                     U.S. GOVERNMENT PUBLISHING OFFICE
95-492 PDF               WASHINGTON : 2015  
______________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1374637c53706660677b767f633d707c7e3d">[email&#160;protected]</a>  
                  
                    
                    
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                  (ii)
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Vice Chairman          GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
                                 ------                                

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
GREGG HARPER, Vice Chairman          PAUL TONKO, New York
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               KURT SCHRADER, Oregon
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
RICHARD HUDSON, North Carolina           officio)
KEVIN CRAMER, North Dakota
FRED UPTON, Michigan (ex officio)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     2
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     3
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     4
    Prepared statement...........................................     6
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     8
    Prepared statement...........................................     9
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9

                                Witness

Hon. Gina McCarthy, Administrator, Environmental Protection 
  Agency.........................................................    11
    Prepared statement...........................................    13
    Answers to submitted questions \1\...........................    79

                           Submitted Material

Chart, ``EPA Proposed CO<INF>2</INF> Rule,'' submitted by Mr. 
  Shimkus........................................................     5
Slide, ``Counties Where Measured Ozone is Above Proposed Range of 
  Standards (65-70 parts per billion),'' submitted by Mr. Olson..    30
Report, ``Pending 2015 Ozone NAAQS: Implications for Texas,'' 
  Texas Department of Transportation, January 2015, \2\ submitted 
  by Mr. Olson...................................................    31
Slide, ``Table 4-10. Summary of Known and Unknown Emission 
  Reductions by Alternative Standard Levels in 2025, Except 
  California (1,000 tons/year),'' submitted by Mr. Olson.........    32
Slide, ``Ozone 67-99%,'' submitted by Mr. Olson..................    34
Slide, ``Ratio of U.S. Background to Total Seasonal Mean 03,'' 
  submitted by Mr. Olson.........................................    35
Letter of January 16, 2015, from Steve Hagle, Deputy Director, 
  Office of Air, Texas Commission on Environmental Quality, to 
  Mr. Olson, submitted by Mr. Olson..............................    37
Report of The Beacon Hill Institute at Suffolk University, ``The 
  Economic Effects of the New EPA Rules on the United States,'' 
  January 2015, \3\ submitted by Mr. Scalise.....................    76

----------
\1\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF03/
  20150225/103014/HHRG-114-IF03-Wstate-McCarthyG-20150225-
  SD003.pdf.
\2\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF03/
  20150225/103014/HHRG-114-IF03-20150225-SD011.pdf.
\3\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF03/
  20150225/103014/HHRG-114-IF03-20150225-SD008.pdf.


                    THE FISCAL YEAR 2016 EPA BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2015

                  House of Representatives,
                   Subcommittee on Energy and Power
                             joint with the
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:00 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee on Energy and Power) 
presiding.
    Members present: Representatives Whitfield, Shimkus, Olson, 
Harper, Barton, Pitts, Murphy, Latta, McKinley, Pompeo, 
Kinzinger, Griffith, Johnson, Bucshon, Flores, Mullin, Hudson, 
Cramer, Upton (ex officio), Rush, Green, DeGette, Castor, 
Sarbanes, Welch, Yarmuth, Loebsack, Schrader, Cardenas, and 
Pallone (ex officio).
    Also present: Representative Scalise.
    Staff present: Nick Abraham, Legislative Clerk; Gary 
Andres, Staff Director; Charlotte Baker, Deputy Communications 
Director; Sean Bonyun, Communications Director; Leighton Brown, 
Press Assistant; Allison Busbee, Policy Coordinator, Energy and 
Power; Jerry Couri, Senior Environmental Policy Advisor; 
Patrick Currier, Counsel, Energy and Power; Tom Hassenboehler, 
Chief Counsel, Energy and Power; Charles Ingebretson, Chief 
Counsel, Oversight and Investigations; Ben Lieberman, Counsel, 
Energy and Power; David McCarthy, Chief Counsel, Environment 
and the Economy; Brandon Mooney, Professional Staff Member, 
Energy and Power; Mary Neumayr, Senior Energy Counsel; Chris 
Sarley, Policy Coordinator, Environment and the Economy; Peter 
Spencer, Professional Staff Member, Oversight; Michael Goo, 
Democratic Senior Counsel, Energy and Environment; Caitlin 
Haberman, Democratic Professional Staff Member; and Rick 
Kessler, Democratic Senior Advisor and Staff Director, Energy 
and Environment.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call the hearing to order 
this morning. Today the Energy and Power and the Environment 
and the Economy Subcommittee will be examining the 
Environmental Protection Agency's fiscal year 2016 budget 
request. And before you start my time, I certainly want to 
welcome Administrator Gina McCarthy. Thank you very much for 
being with us today. You have been before our committee many 
times, and we certainly enjoy working with you. You are an able 
Administrator. We have very significant differences of views on 
what you are doing up there, or down there, but we will all 
have an opportunity today to ask questions. And thank you, once 
again, for taking time to be with us. We appreciate it. And at 
this time I recognize myself for 3 minutes for an opening 
statement.
    I would say, first of all, we all are very much aware that 
President Obama has made it very clear that he considers 
climate change to be one of the major issues facing mankind 
today. I was reading an article just a few days ago how this 
administration has spent 14 times more on green energy per year 
than embassy security around the world. As a matter of fact, 
over the last 5 years the administration has spent roughly $39 
billion a year financing grants, subsidizing tax credits, 
guaranteeing loans, bailing out solar energy boondoggles, and 
otherwise underwriting every renewable energy idea under the 
sun.
    Now, we all recognize that climate change is occurring. The 
fundamental difference is we don't believe it is the number one 
issue facing mankind, and the President does. And because of 
his going around all over the world and entering into 
international agreements that the Congress has not agreed to, 
that he has not consulted with Congress about, he is committing 
the U.S. to meet certain requirements. And so many of the rules 
coming out of EPA which are so controversial are really being 
implemented to implement the President's June 2013 speech, in 
which he outlined his Climate Action Plan.
    So I was reading a legal opinion recently, and it said a 
President's speech is certainly not a matter of law. But the 
President, making these international agreements, has, through 
regulation, pursued his commitments that he is making. But 
other countries that are part of these agreements, they are not 
doing the same thing, so the U.S. is being penalized because of 
these extreme actions.
    So what you all are doing, and I am reading from a legal 
opinion that Mr. Tribe wrote, you are forcing a select set of 
victims, including coal relying consumers, communities, 
regions, businesses, and utilities to bear a substantial part 
of what is a global problem that even you, and your 
predecessor, indicated that these regulations would not solve. 
So you are asking for 425 million more dollars than last year. 
A lot of that money is going to go to hire additional lawyers 
to defend and litigate these extreme regulations. So we look 
forward to the opportunity today of exploring this situation 
with you.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    This morning, the Energy and Power and the Environment and 
the Economy Subcommittees will explore the Environmental 
Protection Agency's (EPA) FY 2016 budget proposal, and I 
welcome Administrator McCarthy to this hearing. The proposed 
budget is $8.59 billion, a $452 million increase over last 
year's appropriation.
    This amount is more than enough to allow the Agency to 
perform its required duties under the Clean Air Act and all the 
other statutes that it administers. The problem is that the 
Obama EPA has strayed well beyond its legitimate functions and 
has embarked on an expansive and expensive global warming 
regulatory agenda that is on shaky legal ground and is bad 
policy for the country.
    Most problematic of all is the proposed Clean Power Plan 
and the Agency's attempted Federal takeover of State 
electricity systems. In that plan, the Agency is seeking to 
dictate to States how electricity will be generated, 
transmitted, and used. The Agency is regulating far outside its 
authority, and reveals as much in its Congressional 
justification for the FY 2016 budget. In this document, EPA 
refers to the Clean Power Plan as ``unprecedented, 
``groundbreaking,'' and ``unique,'' and admits that it 
``requires the Agency to tap into technical and policy 
expertise not traditionally needed in EPA regulatory 
development.'' EPA says these things in order to justify the 
considerable outlays needed to pursue this regulatory detour, 
but in my view it raises serious questions whether the Agency 
has the authority to do so in the first place.
    Perhaps the most disturbing admission of all is that the 
Agency anticipates the need to hire many new lawyers to 
implement this highly complicated rule and defend it against 
litigation from States and other opponents. To me, the fact 
that EPA thinks it has to lawyer-up to fight State governments 
is a sure sign that the Clean Power Plan is not in the best 
interests of the American people. I would much prefer that the 
Agency work cooperatively with the States and listen to their 
concerns rather than try to beat them in court.
    The Clean Power Plan for existing power plants is only part 
of the Agency's rulemaking agenda targeting coal and increasing 
costs to ratepayers. There is also the proposed New Source 
Performance Standards that effectively outlaw new coal-fired 
generation. There is the very expensive ``Utility MACT'' rule 
that is already contributing to power plant shutdowns, as well 
as the Cross-State Air Pollution rule, the regional haze 
requirements, and others. We will also have a much more 
stringent ozone rule, which would adversely affect electricity 
generation as well as manufacturing. As a result, we are 
already seeing rising electric bills and reliability concerns 
due to this anti-coal agenda, and the worst is yet to come.
    While the Agency has embarked on its global warming agenda 
and other regulatory overreaches, it has dropped the ball badly 
on many of its non-discretionary duties. Most notably, EPA has 
repeatedly missed the statutorily imposed deadlines for 
implementing the Renewable Fuel Standard. The 2014 rule was 
supposed to have been finalized by November 30, 2013, so that 
regulated companies would know ahead of time what will be 
required of them. Instead, the Agency has still not finalized 
its rule, and 2014 is already over. Some biofuel companies have 
literally gone out of business while EPA has failed to act. The 
same is true for many other non-discretionary duties that the 
Agency has delayed or ignored.
    The Agency's atrocious record meeting its required 
deadlines stands in sharp contrast to the front-burner status 
given to its discretionary global warming agenda, and now the 
administration is requesting even larger sums to expand this 
agenda. I cannot help but think that the manpower and dollars 
going to global warming is partly responsible for the Agency's 
neglect elsewhere. The Obama administration may consider global 
warming to be its number one priority, but I certainly don't, 
and I am disturbed to see the extent the Agency is willing to 
shirk its actual responsibilities to focus on it. As it is, 
EPA's agenda is badly out of line with the law and with the 
public interest, and unfortunately this budget is a reflection 
of that.

    Mr. Whitfield. And, with that, we are doing 3 minutes 
today, Mr. Rush, so I recognize the gentleman for a 3-minute 
opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Well, thank you, Mr. Chairman. Administrator 
McCarthy, it is always a pleasure to see you come before this 
subcommittee, and bring great news, and sharing with this 
subcommittee all the great work that you all are doing over at 
the EPA. And I just want to thank you so much, you and your 
Agency, for all of the great work that you do in protecting the 
air, and land, and water on behalf of the American people. If 
it was appropriate, I would get up and ask for a standing 
ovation, but I don't think that that would be appropriate at 
this point in time. But you understand how we feel about you on 
this side.
    While this is a budget hearing, we might as well address 
the elephant in the room, and discuss the topic that is on the 
minds of many of my colleagues, and that is the proposed Rule 
111(d), the Clean Power Plan. Madam Administrator, on behalf of 
those of us, which includes most of the American people, who do 
not believe that the world's scientists and climatologists have 
all conspired together to perpetrate a hoax by saying that 
climate change is real, and humans have contributed to it, I 
would like to commend the leadership of President Obama, 
yourself, for working to address this serious issue that 
impacts all of America, all of our citizenry, and indeed 
everyone else around the globe.
    The Clean Power Plan represents a significant opportunity 
to shift away from some of the dirtiest carbon emitting energy 
sources that have contributed greatly to polluting the 
atmosphere to cleaner, more sustainable forms of energy that 
will help pull us back from the brink of disaster, and set us 
on a more stable footing. Madam Administrator, I applaud EPA 
for striking a flexible, State-based approach that provides 
States, utilities, and grid operators with time and options for 
finding ways to reduce their CO<INF>2</INF> emissions, while 
also maintaining a form of reliable energy for consumers.
    I just want to thank you, Madam Chairman. I look forward to 
engaging with you during the question portion of today's 
hearing. And I yield back the balance of my time.
    Mr. Whitfield. Thank you, Mr. Rush. At this time I would 
like to recognize the gentleman from Illinois, Mr. Shimkus, the 
chairman of the Environment and Economy Subcommittee.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Chairman Whitfield, for recognizing 
me, and I do want to welcome Administrator McCarthy. I 
appreciate your willingness to work with us in the past on such 
things as electronic submission of hazardous waste manifests. 
That actually can be very helpful. As I spoke to you earlier, 
we look forward in collaborating with you on the coal ash 
legislation, and also on Toxic Substance Control Act.
    For me, today's hearing is not just an administrative 
exercise where we do bean counting. While we don't write the 
checks the Agency cashes, most of the major legal authority 
that underpins the work delegated to the Agency rests within 
this committee. Today's hearing gives us a chance to compare 
the Agency's individual budget request with EPA's underlying 
statutory authority.
    As a legislator, I have many questions where I think more 
information is needed to evaluate how statutory mandates are 
being carried out. For example, I have questions about the 
statutory nexus with the following budget request and policies 
that are being implemented, like the Clean Power Plan, the 
Climate Ready Water Utilities Program, and regulations under 
the Clean Air Act implementing Executive Order 13-650, which I 
think is chemical safety.
    Legal authority aside, we know these regulations can become 
complicated to implement, with unclear guidance adding 
unnecessary costs to the regulated industries, and ultimately 
to the consumer.
    [Chart follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    This chart, we think, shows how cumbersome your proposal on 
the Clean Power Plan could be just by itself. Maybe you have a 
better chart that makes it a little more simplistic. If this 
plan puts reliability at risk, and the base load energy from 
sources such as coal and nuclear power in danger, communities 
may pay higher costs, and potentially suffer brown-outs when 
most in need. We have to ask ourselves if this plan leads to 
the energy future Americans expect. I believe there is a better 
way, and that we can find solutions to these challenges without 
placing the burden on the backs of consumers, or by sacrificing 
power plants that provide good paying jobs to families across 
the country.
    I will also have questions about funding and pace of 
activity on chemicals under the Toxic Substances Control Act, 
specifically on the Agency's transparency concerning 
prioritizing and setting policy choices. These areas will be 
particularly important as we look to work across the aisle on 
both sides of the cabal to update this law.
    Again, I thank the Administrator for being here. I look 
forward to today's conversation, and the ones that will follow.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    I thank Chairman Whitfield for recognizing me, and I, too, 
want to welcome the Administrator once again to our hearing 
here today.
    I appreciate the Administrators willingness to work 
productively with us in the past on issues such as creating a 
legal framework for electronic submission of hazardous waste 
manifests. We again look forward to collaborating with you as 
we work to enact coal ash legislation and a bill to reform the 
Toxic Substances Control Act.
    For me, today's hearing is not just an administrative 
exercise where we do bean counting. While we don't write the 
checks the Agency cashes, most of the major legal authority 
that underpins the work delegated to the Agency rests within 
this committee. Today's hearing gives us a chance to compare 
the Agency's individual budget requests with EPA's underlying 
statutory authorities.
    As a legislator, I have many questions where I think more 
information is needed to evaluate how statutory mandates are 
being carried out.
    For example, I have questions about the statutory nexus 
with the following budget requests and policies they are 
implementing:
    1. The Clean Power Plan,
    2. The Climate Ready Water Utilities program, and
    3. Regulations under the Clean Air Act implementing 
Executive Order 13650.
    Legal authority aside, we know these regulations can become 
complicated to implement with unclear guidance, adding 
unnecessary costs to the regulated industries and ultimately to 
the consumer. This chart shows just how cumbersome EPA's 
proposed clean power plan is just by itself. If this plan puts 
reliable base load energy from sources such as coal and nuclear 
in danger, communities may face higher costs and potentially 
suffer brown outs when most in need. We have to ask ourselves 
if this path leads to the energy future Americans expect. I 
believe there is a better way, and that we can find solutions 
to these challenges without placing the burden on the backs of 
consumers or by sacrificing power plants that provide good 
paying jobs to families across the country.
    I also have questions about funding and pace of activity on 
chemicals under the Toxic Substances Control Act, specifically 
on the Agency's transparency concerning prioritizing and 
setting policy choices. These areas will be particularly 
important as we look to work across the aisle on both side of 
the Capitol to update this law.

    Mr. Shimkus. I would like to yield the remainder of my time 
to Chairman Emeritus Barton, I think.
    Mr. Barton. I am here, all 27 seconds of me.
    Mr. Shimkus. You are welcome.
    Mr. Barton. Madam Administrator, we are always glad to see 
you. You are very accessible, and you are very personable in 
public, and when we have private conversations. I am going to 
ask you about the China policy the President recently 
announced, and I am also going to talk to you about the 
renewable fuel standard, and the RINs situation, which, as you 
well know, under current law, is simply not workable. But we do 
appreciate your accessibility, and look forward to the 
interchange.
    Mr. Whitfield. Gentleman's time has expired. At this time I 
recognize the gentleman from New York, Mr. Tonko, the ranking 
member of the Environment and Economy Subcommittee.


   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, and good morning. Thanks to Chair 
Whitfield and Chair Shimkus for holding this hearing on the 
Environmental Protection Agency's budget request. And welcome, 
Administrator McCarthy. We appreciate your keen intellect, and 
I respect your passion to provide sound stewardship for our 
environment, all while growing jobs. And I thank you for being 
here today to discuss the President's fiscal year 2016 budget 
request for the Agency.
    The EPA plays a vital role in the lives of our citizens, 
and in maintaining the resource base that sustains our society, 
and indeed our economy. As you state in the opening of your 
testimony, Administrator McCarthy, public health and a clean 
environment are inextricably linked. I agree. And the record of 
environmental achievement and economic growth over the years 
demonstrates that environmental protection is consistent with a 
strong and vital economy. In fact, if we are willing to make 
investments in vital environmental infrastructure, such as our 
drinking water treatment and delivery, source water protection, 
sewage treatment, and waste to energy systems, we can create 
thousands of jobs, and improve the condition of our rivers, our 
lakes, and our coastlines. We are not saving by avoiding these 
investments. At best, we are transferring these costs to State 
and local governments, to businesses and to individual 
citizens. But even worse, by delaying needed maintenance and 
repairs, we are raising the costs of the very systems upon 
which we depend.
    When polluted land and water are not cleaned up, the 
resources become unavailable for productive use. A contaminated 
property is unoccupied, undeveloped, and generates no revenue 
for our economy and for our community. Pollution that is not 
attended to spreads, leading to additional problems. And it 
does not become less expensive to clean these up at a later 
time. The cost only rises. Our failure to repair vital 
infrastructure, and to the address the complex challenges of 
climate change, has already cost us a great deal. 
Infrastructure does not repair itself, and the pace and impact 
of climate change, both are increasing. We need to address 
these issues now, before the costs rise further.
    I know there are many members who believe that cutting the 
EPA budget is a good thing for the economy, because a lower 
budget will block the Agency from issuing regulations and 
enforcing environmental laws. In fact, much of the EPA budget 
supports State and local governments, either through grants and 
loans, or with information and technical assistance that is so 
welcome. Cuts to the EPA budget translate into extra burden on 
our States, our local, and tribal governments. The 
administration and the Congress should be working together to 
ensure that we maintain and improve upon our record of 
environmental protection. EPA's budget is an important part of 
that effort, and I indeed look forward to your testimony, 
Administrator McCarthy, and to working with you to continue our 
progress as a Nation in environmental protection. And thank you 
again for joining us.
    Mr. Whitfield. Gentleman's time has expired. At this time I 
would recognize the chairman of the full committee, Mr. Upton, 
for 3 minutes.


   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman, and we do appreciate 
the Administrator of EPA for appearing before us today to 
discuss the budget requests and priorities. Yes, we have sharp 
areas of disagreement, but together, the two of us, we have 
never been disagreeable, and I look forward to the continued 
relationship.
    I am sad to say that the budget request, to me, looks like 
we can expect more of the same red tape and costly rules, and 
that concerns me, because I think some of these regs are going 
to cost American households and families big time. They are 
going to cost our businesses, particularly manufacturing. 
Manufacturing in Michigan, as you know, and across the country, 
finally does have an edge. For the first time in years, major 
global manufacturers are eyeing Michigan, and other States, to 
set up or relocate operations--is on the side of American 
workers, but EPA's regulatory agenda does threaten to raise the 
costs, and shift the advantage back to foreign manufacturers.
    EPA seems intent on locking in a long list of new regs that 
will bind future administrations. Along with the Clean Power 
Plan, EPA has proposed new ozone standards that may prove to be 
the most expensive rule ever. I would like to see EPA focus on 
its current responsibilities before taking on new ones. The 
Agency is working on this new ozone rule even though it is well 
behind schedule implementing the existing standard. And the 
Agency routinely misses its deadlines under the RFS, making 
this problematic program even more difficult. And I remember 
your testimony last year, when we thought we would have an 
answer last spring.
    While we do have our clear differences, your testimony 
today also presents an opportunity to explore areas of common 
ground. For example, we can embrace much of the EPA rule on 
coal ash, but go a step further and place permitting authority 
in the States. This should work for EPA, making sure that the 
EPA's control standards are effectively enforced. This should 
also work much better for the States, who will have explicit 
benchmarks to meet, and the authority to manage the 
implementation. It would also work for the people responsible 
for handling the combustion residuals every day, including 
plant operators, recyclers, and other job creators, who will be 
given the opportunity and the regulatory certainty that they 
need.
    Likewise, it was clear last year that your goals, and ours, 
for TSCA reform overlap. So let us sit down and work together 
on good legislation that is bipartisan to improve safety for 
the public, and to ensure a robust interstate market for 
chemicals and products that contain them. Thanks for being with 
us today. Yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Welcome Administrator McCarthy. We appreciate you appearing 
before us today to discuss EPA's budget request and priorities. 
We do have areas of sharp disagreement, but I am hopeful our 
time together will not be disagreeable.
    I am sad to say the budget request looks like we can expect 
more of the same red tape and costly rules. And that concerns 
me because I think these regulations are going to cost American 
households and families. They are going to cost our businesses, 
particularly manufacturing. Manufacturers in Michigan and 
across the country finally have an edge. For the first time in 
years, major global manufacturers are eyeing Michigan and other 
States to set up or relocate operations. Momentum is on the 
side of American workers. But EPA's regulatory agenda threatens 
to raise costs and shift the advantage back to foreign 
manufacturers.
    EPA seems intent on locking-in a long list of new 
regulations that will bind future administrations. Along with 
the Clean Power Plan, EPA has a proposed new ozone standard 
that may prove to be the most expensive rule ever. It may also 
propose new measures targeting methane emissions from oil and 
natural gas production. The shale revolution has been one of 
the few bright spots in the economy in recent years. We should 
be focusing on ways to leverage and multiply the benefits--for 
example, by creating jobs building energy infrastructure. The 
last thing we should do is jeopardize these benefits with rules 
that may make drilling in America too expensive.
    I'd like to see EPA focus on its current responsibilities 
before taking on new ones. The Agency is working on a new ozone 
rule even though it is well behind schedule implementing the 
existing standard. And the Agency routinely misses its 
deadlines under the Renewable Fuel Standard, making this 
problematic program even more difficult.
    While we do have our clear differences, your testimony 
today also presents an opportunity to explore areas of common 
ground. For example, we can embrace much of the EPA rule on 
coal ash, but go a step further and place permitting authority 
in the States. This should work for EPA making sure that the 
EPA's control standards are effectively enforced. It should 
also work much better for the States who will have explicit 
benchmarks to meet and the authority to manage the 
implementation. It will also work for the people responsible 
for handling the combustion residuals every day, including 
plant operators, recyclers, and other job creators who will be 
given the regulatory certainty they need.
    Likewise, it was clear last year that your goals and ours 
for TSCA reform overlap. Let's sit down and work out good 
legislation to improve safety for the public and to ensure a 
robust interstate market for chemicals and products that 
contain them.

    Mr. Whitfield. Gentleman yields back. At this time I 
recognize the ranking member, Mr. Pallone of New Jersey, for 3 
minutes.


OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairmen Whitfield and Shimkus, and 
also our ranking members, Rush and Tonko. And thank you, 
Administrator McCarthy, for being here today.
    A clean environment is not a luxury. It is essential to 
public health, and to a strong economy, and the EPA is on the 
front lines of the effort to make our air safer to breathe, and 
our water safer to drink. The President's fiscal year 2016 
budget funds the EPA at 8.6 billion, an increase of more than 
450 million over the fiscal year 2014 enacted level, and that 
is the minimum amount, in my opinion, that EPA needs to begin 
to address the many environmental challenges we are facing 
today, which happen to include the greatest known environmental 
threat and challenge to our planet, and that is climate change.
    Meanwhile, funds requested for EPA represent a small 
portion of the overall Federal budget, less than \1/4\ of 1 
percent, yet over 40 percent is shared with the States and 
tribes to help them implement Federal environmental laws and 
achieve national goals, and those funds support local economies 
and communities big and small. For example, the budget includes 
significant funding for Superfund and brownfields cleanup. In 
addition to protecting human health and the environment, these 
cleanup projects are also promoting substantial economic 
growth, and gains in community and property value.
    According to a recent analysis, on-site businesses and 
organizations on current and former Superfund sites in just one 
of EPA's nine regions provides over 6,200 jobs, and contribute 
an estimated $334 million in annual employment income. Another 
study found that properties within three miles of Superfund 
sites experienced an 18.6 percent to 24 \1/2\ percent increase 
in value when the sites are cleaned up. The fiscal year 2016 
budget would also invest in our Nation's aging drinking water 
infrastructure by providing over a billion for State revolving 
funds under the Safe Drinking Water Act, and these funds will 
support needed infrastructure projects for public drinking 
water systems well beyond this fiscal year.
    Also important, I want to commend the President for 
prioritizing actions to reduce the impacts of climate change in 
this budget. The budget provides funding for EPA's Clean Power 
Plan, including money to help States develop their own 
strategies, and request a new Clean Power State Incentive Fund 
for State efforts to go above and beyond their carbon pollution 
reduction goals in the power sector. Some say the Clean Power 
Plan is problematic for an economy, but the reality is that 
over the past 40 years, clean air regulations have produced 
tremendous public health benefits, while also supporting 
America's economic growth.
    And close to home, I appreciate the efforts to help smaller 
communities build climate resiliency. My district has the 
dubious distinction of being one of the hardest hit by Super 
Storm Sandy, and the EPA's plan can help communities integrate 
climate adaptation planning into their efforts to upgrade their 
infrastructure. This planning will be essential to protecting 
the economies of communities facing the devastating costs of 
climate change.
    This is a sound budget. I support it, and I look forward to 
learning from Administrator McCarthy. Thank you.
    Mr. Whitfield. Thank you very much, Mr. Pallone. At this 
time that concludes the opening statements, so, at this time, 
Ms. McCarthy, you are recognized for your 5 minutes of 
testimony. Thank you.

   STATEMENT OF THE HONORABLE GINA MCCARTHY, ADMINISTRATOR, 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCarthy. Thank you, Chairmen Whitfield and Shimkus. 
Thank you, Ranking Members Rush and Tonko, and the members of 
the committee for giving me the opportunity today to appear 
before you to discuss the Environmental Protection Agency's 
proposed fiscal year 2016 budget. I am joined by the Agency's 
Acting Chief Financial Officer, David Bloom.
    The EPA's budget request of $8.592 billion in discretionary 
funding for the 2016 fiscal year provides the resources that 
are vital to protecting human health and the environment, while 
building a solid path forward for sustainable economic growth. 
Since 1970, when the EPA was founded, we have seen over and 
over again that a safe environment and a strong economy go hand 
in hand.
    This budget supports essential work to address climate 
change, improve air quality, protect our water, safeguard the 
public from toxic chemicals, support communities' environmental 
health, maintain core enforcement strength, support needed 
research, and work towards a sustainable future for all 
Americans. Effective environmental protection is a joint effort 
of EPA, States, and our tribal partners. We are setting a high 
bar for continuing our partnership efforts, and looking for 
opportunities for closer collaboration and targeted joint 
planning and governance processes through efforts like e-
Enterprise governance approach. That is why the largest part of 
our budget, $3.6 billion, or 42 percent, is provided directly 
to State and tribal partners.
    The fiscal year 2016 request includes an increase of $108 
million for State and tribal categorical grants. This budget 
requests $1.1 billion to address climate change and improve air 
quality. These resources will help protect those most 
vulnerable to climate impacts and the harmful health effects of 
air pollution through common sense standards, guidelines, and 
partnership programs.
    Climate change is not just an environmental challenge. It 
is a threat to public health, our domestic and global economy, 
and to national and international security. The request 
supports the President's Climate Action Plan, and in particular 
the Clean Power Plan, which establishes carbon pollution 
standards for power plants. In addition, the President's budget 
calls for a $4 billion Clean Power State Incentive Fund to 
support State efforts to accelerate carbon pollution reductions 
in the power sector.
    Protecting the Nation's waters remains a top priority for 
EPA. In fiscal year 2016 we will finalize and support 
implementation of the Clean Water Rule, which will clarify the 
types of waters covered under the Clean Water Act, and foster 
more certain and efficient business decisions to protect the 
Nation's waters. Recognizing the need for water infrastructure, 
the SRF and related efforts are funded at over $2.3 billion, 
and we will work with our partners to help communities by 
focusing on issues such as financial planning for future public 
infrastructure investments, and expanded efforts with States to 
identify financing opportunities for resilient drinking water, 
water, and storm water infrastructure. Last month the Agency 
launched the Water Infrastructure and Resiliency Finance 
Center. It is a key component of our expanded efforts moving 
forward.
    We are proposing a multifaceted effort to help our 
communities, including low-income neighborhoods, rural 
communities, and communities of color. This includes targeted 
funding, and on the ground community assistance through EPA 
regional coordinators, and a network of circuit riders. An 
investment of $16.2 million will help local communities improve 
safety and security at chemical facilities to prevent and 
prepare for oil spills. These efforts represent a shared 
commitment among those with a stake in chemical facility safety 
and security, ranging from facility owners to first responders. 
The fiscal year 2016 budget request will let us continue to 
make a real and visible difference to communities every day. It 
will give us a foundation to improve infrastructure across the 
country, and it will sustain State, tribal, and Federal 
environmental efforts all across our programs.
    With this proposed budget, the President is not only 
sending a clear signal about the resources EPA needs to work 
effectively and efficiently with States and tribes to protect 
public health and the environment, it is also a part of an 
overall Federal budget proposal that does not accept the bad 
public policy embodied in sequestration, and does not hold back 
needed resources in non-defense spending in order to increase 
needed defense spending, or vice versa. Instead, the 
President's proposed fiscal year 2016 budget finds a path 
forward to avoid sequestration, and properly support both 
domestic and national security interests.
    Mr. Chairman, I thank you for the opportunity to testify, 
and I look forward to answering your questions.
    [The prepared statement of Ms. McCarthy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
    
        
    Mr. Whitfield. Well, thank you very much for your 
testimony, Ms. McCarthy, and I will recognize myself 5 minutes 
for questions.
    First question I would just ask you is how confident are 
you that you can defend the use of 111(d) to implement the 
existing coal plant rule?
    Ms. McCarthy. I am sorry, could you repeat that question? 
Sorry.
    Mr. Whitfield. How confident are you that you can 
successfully defend the use of 111(d) to implement the existing 
coal plant----
    Ms. McCarthy. Thank you.
    Mr. Whitfield (continuing). Rule?
    Ms. McCarthy. I feel very confident. One of the reasons I 
say that is because of the extensive outreach that the Agency 
has done to each and every State, to all the stakeholders, 
including the environmental and energy stakeholders. I feel 
confident that we are seeing plans develop now that will be 
very sound, and that we can move this forward in a way that 
will both be beneficial----
    Mr. Whitfield. So you think the outreach would pre-empt 
what the explicit language says? That is your position----
    Ms. McCarthy. I think the outreach has helped inform the 
explicit language----
    Mr. Whitfield. OK.
    Ms. McCarthy (continuing). So that it is reasonable and 
fair, and it is going to allow states to move forward.
    Mr. Whitfield. Now, in your submission, your budget 
document, you talk about further efforts are required to put 
the country on an emission trajectory consistent with the 
President's long term climate goals. Now, I assume that you are 
talking about the commitments that he made in Copenhagen and in 
China, in which he said that he wanted to reduce carbon dioxide 
emissions in America by 17 percent below 2005 levels by 2020, 
and then 26 to 28 percent below those level by 2025. Is that 
correct?
    Ms. McCarthy. I think I am referring to the President's 
understanding that climate change is a significant issue that 
the administration has the authority and responsibility to 
address, and I am trying to make sure that we deliver our 
portion of that plan effectively.
    Mr. Whitfield. Well, how did they decide on 17 percent 
below 2005 levels by 2020?
    Ms. McCarthy. That was an international goal that the U.S. 
Government put forth in those----
    Mr. Whitfield. So the U.S.----
    Ms. McCarthy. I----
    Mr. Whitfield (continuing). Government presented that? That 
was what the goal was?
    Ms. McCarthy. Yes, as part of the----
    Mr. Whitfield. And how was that determined by the U.S. 
Government? How did they reach that conclusion?
    Ms. McCarthy. I think you would have to speak with the 
Department of State to know the ins and outs of that 
discussion.
    Mr. Whitfield. Have you had any discussions with them about 
that----
    Ms. McCarthy. Certainly. We have talked about the rules 
that the Agency had underway----
    Mr. Whitfield. I mean----
    Ms. McCarthy (continuing). At that time, and----
    Mr. Whitfield. I mean, I could make the argument it is 
pretty arbitrary. Could I make that argument or not?
    Ms. McCarthy. I think that what we are talking about now, 
and the plan that is before you, the budget plan, is very 
concrete. Authorities that the EPA has are responsibilities, 
and will be concrete steps moving forward that are measurable.
    Mr. Whitfield. Yes, but one thing that bothers us, when you 
testified on the Senate in July of 2014, you had mentioned that 
this is not about pollution control. You said it in your 
statement, this is not about pollution control. So this must be 
about honoring the President's commitment.
    Ms. McCarthy. My statement was referring to the fact that, 
when you seek to address carbon pollution, there are many ways 
in which it is an investment opportunity, instead of an end of 
pipe pollution control technology.
    Mr. Whitfield. So, in other words, this is about investment 
opportunities, from your perspective?
    Ms. McCarthy. What I am suggesting is that States can look 
at this as an opportunity----
    Mr. Whitfield. But it is not----
    Ms. McCarthy (continuing). To invest in their----
    Mr. Whitfield. But it is not about pollution control?
    Ms. McCarthy. It is not about the installation of pollution 
control technology.
    Mr. Whitfield. All right. Would the President's Clean Power 
Plan meet his international commitments without the adoption of 
these rules that you are proposing?
    Ms. McCarthy. I think that the President has established 
some aggressive goals for this Nation that are commensurate 
with our interests in addressing climate domestically, and also 
meeting our commitment internationally to address this issue. 
But EPA is not focusing our legal efforts----
    Mr. Whitfield. Um-hum.
    Ms. McCarthy (continuing). On any particular international 
or domestic goal. They are just implementing the authorities 
under the Clean Air Act that are given to us.
    Mr. Whitfield. See, the reason many of us in Congress are 
so upset about this is that the cap and trade system was 
rejected by the Congress, and yet the President goes out and 
makes international commitments, does not consult with 
Congress, comes back, announces, at his Georgetown speech, this 
is my plan, and then EPA follows up, and we are going to issue 
these regulations to meet the President's plan so that he could 
meet his international agreements.
    Ms. McCarthy. Well, the Clean Power Plan is a direct 
application of the authority that Congress gave us to look at 
how to establish a best system of emission reductions for the 
power sector to address carbon pollution, which is a regulated 
pollutant under the Clean Air Act.
    Mr. Whitfield. I want to ask more questions, but my time is 
out, so----
    Ms. McCarthy. Thank you, sir.
    Mr. Whitfield (continuing). At this time I recognize Mr. 
Rush for 5 minutes.
    Mr. Rush. Again, I am going to thank you, Administrator 
McCarthy. Also, I want to express my gratitude for the meeting 
that I had with Acting Assistant Administrator Janet McKean 
last January, I believe it was, where we discussed my concerns 
regarding the nuclear provision in the proposed 111(d) rule. 
And as I stated in my opening statement, it is important that 
the finalized rule gives new credit to all zero emission 
sources of energy, which not only includes renewables such as 
solar, wind, hydro, and geothermal, all of which I fully 
support, but also nuclear power generation.
    As you know, my home State of Illinois is home to the 
highest number of nuclear reactors, 11, that provide up to 48 
percent of the State's electricity. These carbon-free nuclear 
generators run all above 90 percent capacity, which is 
extremely efficient in comparison to any other type of energy 
source. The goal of the Clean Power Plan is to reduce carbon 
emissions, while also ensuring that States can continue to 
provide reasonably priced safe, reliable electricity to its 
consumers, then nuclear power must play a central role in 
helping to achieve this objective.
    While I realize that there are other market-based 
considerations that are resultant in nuclear being somewhat 
less competitive, I feel as though the EPA must work to 
finalize a rule that incentivizes States to preserve nuclear 
power in their energy portfolios by valuing nuclear generation 
on par with other common free sources. It is critical that the 
final 111(d) rule helps promote the continued use of zero 
emission generation, such as both renewable and nuclear energy 
if we are actually going to achieve the carbon reductions that 
the regulation was intended to produce.
    My question to you, Madam Administrator, would you agree 
that nuclear power must play a vital role in the Clean Power 
Plan, in that it allows States to provide zero emissions-based 
loan power generation that is affordable, safe, and reliable?
    Ms. McCarthy. I think it is a part of every State's 
strategy moving forward, yes.
    Mr. Rush. Can you assure the subcommittee that EPA has 
taken into account the concerns of States like Illinois, who 
might be negatively impacted if nuclear power is not fully 
credited in a State's plan to meet its charted carbon 
reductions?
    Ms. McCarthy. I certainly agree that nuclear power is zero 
carbon, and it is an important part of the base load for many 
of the States, and it should be considered by those States 
carefully in the development of their plans.
    Mr. Rush. I want to thank you. I also would like to 
continue to engage your office on this issue----
    Ms. McCarthy. Yes.
    Mr. Rush (continuing). To make sure that nuclear power is 
appropriately valued, due to its carbon-neutral emissions, in 
any kind of rule that is proposed.
    Moving along, Madam Administrator, another keen priority 
for me is the issue of environmental justice, and making sure 
that States are provided adequate direction in order to achieve 
the interests of low-income and minority communities. In cases 
where States may not be sure how to conduct environmental 
justice analysis, then I believe that it would be very helpful 
if the EPA provided States with guidance, technical assistance, 
and resources to help protect their most vulnerable communities 
which we all know have the least amount of affluence, and 
influence, to help themselves.
    Can you speak to this issue and assure me that, one, EPA is 
indeed listening, and working with the environmental justice 
groups as the Agency prepares to finalize the rule, and two, 
the Agency will provide States with tools and resources to help 
identify and protect these communities?
    Ms. McCarthy. I can assure you of that, Ranking Member, and 
I will also point out that our environmental justice budget is 
given an increase of $7.3 million this year, which will go a 
long way to helping us provide those tools and technical 
assistance.
    Mr. Rush. Thank you very much.
    Mr. Whitfield. Gentleman's time has expired. At this time I 
recognize the gentleman from Texas, Mr. Barton, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. Thank you again, Madam 
Administrator. I could really have some fun with you today, but 
you are too nice a person.
    Ms. McCarthy. For a short period of time, anyway.
    Mr. Barton. Yes. You have always been responsive 
professionally, and at least accommodating to take my phone 
calls, and to visit with me. So I am not going to grandstand, 
but I do have a question that is--there are several, but the 
first one, the President made this big announcement about 
China, and ballyhooed it as a major breakthrough, and a major 
agreement, but I am told there is actually no written 
agreement, there is no signed document. Is that true?
    Ms. McCarthy. I am not aware that that is the case. I don't 
know. I have not verified that.
    Mr. Barton. OK. Well, I have it on good authority, from the 
professional staff to the majority of this committee, that, in 
reality, all it was was a press release. Now, if that is true, 
and I am going to say if, that we can't find any copy, nor can 
we obtain a copy of any document that was officially signed, 
can you check that out, and let us know? It is one thing to 
have a disagreement about policy. It is another thing to have a 
disagreement over what are in these documents when our 
President signs things.
    The Kyoto Accord, as you well remember, was signed by the 
Vice-President on behalf of President Clinton, but it never was 
ratified by the Senate. In this case, we don't even have 
something that we can debate the pros and cons of. And, given 
the fact that this is a fairly visible issue, I think it is a 
fair question. If there is a signed agreement, let us see it. 
Do you agree with that?
    Ms. McCarthy. Well, my understanding is that it was a 
commitment at the highest levels in both countries, and that 
the decision was made to ensure that the actions that are 
commensurate with those obligations--captured in already 
existing agreements that we have with the country, and that we 
will have an action plan moving forward developed through our 
formal negotiation process.
    Mr. Barton. Is that a long answer to say there is no signed 
agreement?
    Ms. McCarthy. No, there is very much a commitment, and that 
was what was----
    Mr. Barton. A commitment?
    Ms. McCarthy (continuing). Announced, and we have 
agreements to work towards that commitment to----
    Mr. Barton. OK.
    Ms. McCarthy (continuing). Actually put the actions in. And 
the work we are already----
    Mr. Barton. Well, whatever--I mean, when the President of 
the United States, or the Secretary of State, or you, as the 
Administrator of the EPA, represent the United States in 
international exchanges, if agreements are made, something is 
signed. Something is signed. You don't just stand up and say, 
you know, we have this agreement, and hug, and everybody just 
loves each other. You actually have a document, and if it needs 
to be ratified by the Senate or the House, is a commitment.
    And what you have here, I am told, is a press release, a 
photo op, which is not unusual for this President, I will grant 
you. But in this case, a 30-year agreement should actually be 
documented. That is all. So if there is something that is 
signed, you will get it to the committee?
    Ms. McCarthy. Well, I am sure that there was an agreement 
that was announced, and I have seen those documents.
    Mr. Barton. OK.
    Ms. McCarthy. I think----
    Mr. Barton. You have seen----
    Ms. McCarthy (continuing). At the highest level----
    Mr. Barton. You have seen documents that----
    Ms. McCarthy (continuing). By those agents.
    Mr. Barton (continuing). Obama, and whoever the Chinese 
official is, you have actually seen a signed----
    Ms. McCarthy. I----
    Mr. Barton (continuing). Document?
    Ms. McCarthy. I have seen the documents expressing both of 
their commitments to this goal, and I am well aware that we 
have ongoing----
    Mr. Barton. All right. But you haven't seen the signed----
    Ms. McCarthy (continuing). Action items can be documented--
--
    Mr. Barton. OK.
    Ms. McCarthy (continuing). And tracked.
    Mr. Barton. I can take you over to the National Archives 
and show you the signed Declaration of Independence. I can show 
you lots of documents that have signatures on them. You and I 
can agree that I am not going to go out and rob a bank. And you 
can agree that you are not going to rob a bank, and we can both 
hold a press conference, we have agreed we are not going to rob 
a bank.
    Ms. McCarthy. I don't think that this has been discussed as 
that type of a binding agreement. I think it has been discussed 
as a path forward that is very----
    Mr. Barton. I have got 30 seconds left, so I am going----
    Ms. McCarthy. OK.
    Mr. Barton (continuing). To switch gears. Renewable fuel 
standards, we have a situational mandate that simply can't be 
met. You have said publicly and privately that you want to fix 
it, and you have promised the chairman of the committee, and I 
think even in a hearing, that you would have a program to fix 
it. We have yet to see that. When can we expect to see 
something that gives some real relief to this RFS mandate that 
simply can't be met?
    Ms. McCarthy. Well, I think, Congressman, you know that I 
have a real commitment to moving this issue forward. I wished 
it could have happened last year. The approach that EPA took 
received considerable comment, and so you will see something 
very soon, in the spring, that will address that issue and 
hopefully move us forward on a----
    Mr. Barton. Can you give us a date very soon this spring? I 
mean, by the end of March?
    Ms. McCarthy. I don't have a particular timeline, Senator--
I mean Congressman. I----
    Mr. Barton. Yes, don't profane me now.
    Ms. McCarthy. I was giving you a little boost. I just want 
to make sure that we cross our T's and dot our I's. I know we 
were not successful last year as I would like us to be, and I 
really want to get this out in a strong way, and make sure that 
it looks forward.
    Mr. Barton. You are----
    Ms. McCarthy. We both have real interest in this.
    Mr. Barton. All right. Well, keep us informed.
    Mr. Whitfield. Senator's time has expired. At this time I 
recognize the gentleman from New York, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Chair. And, Administrator McCarthy, 
again, welcome, and thank you for your leadership, and for 
joining us this morning. I want to focus on drinking water 
programs.
    I am pleased to this year's budget includes a modest 
increase over the current year's funding level for the Drinking 
Water State Revolving Loan Fund. It seems every week I hear 
about significant water main breaks across our country. A few 
weeks ago, or over the last few weeks, several have hit my 
district, including my hometown of Amsterdam.
    While I am pleased the administration is asking for more 
funding for the primary account dedicated to supporting 
drinking water infrastructure, I am concerned that we are 
continuing to fall further and further behind on the 
maintenance and upkeep of these systems. It costs far more to 
deal with a pipe once it has burst than it is to have a 
systematic program of repair and replacement of infrastructure 
that takes care of our systems. Also, we have many communities 
that are not able to take on more debt, so a loan program isn't 
going to do it for them. They do need grants.
    So in this Agency's budget, there is mention of new 
technologies, and new financing mechanisms that the Agency will 
be exploring. For example, the new Water Infrastructure and 
Resilience Finance Center won't provide funding, but will 
provide assistance to communities seeking outside funding for 
their projects. Is that correct? Is my interpretation of that 
budget correct?
    Ms. McCarthy. For this year we are standing up the program 
itself, yes, but we are also looking at what other States and 
localities are doing so that we can share that information 
effectively, and see if we can't duplicate some of those 
public/private partnerships that are happening already.
    Mr. Tonko. OK. Well, that is leading us in the right 
direction. I have seen estimates of water leakage from drinking 
water systems that range anywhere from 30 to 50 percent. This 
is treated water that is leaking, so it represents both lost 
revenues, because that water is never delivered to a customer, 
and it is lost investment, because the utility paid to purify 
that water. So water and dollars are flowing out of these 
pipes.
    Programs like Water Sense, that encourage water 
conservation by customers are good, but if the biggest water 
loss is from the delivery system, we need to address this. Does 
the Agency have some options for helping utilities to identify 
these leaks and address them?
    Ms. McCarthy. Well, we are--actually a fairly comprehensive 
program. It begins with our Office of Research and Development, 
that conducts research on what types of technologies are 
available to identify where those leaks are happening. And then 
we try to provide technical assistance out of our programs to 
help identify opportunities for reducing those leaks, so we 
will be looking at this.
    And you are absolutely right, that as the climate changes, 
our water challenges get considerable. And if you look at what 
is happening in the western part of the U.S., there is a 
desperate need for water conservation, and the last thing any 
of us would want to do is to see water that is suitable for 
drinking being leaked out of the system.
    Mr. Tonko. Right. It is indeed a precious commodity, and we 
need to have a good collaborative effort to address those 
issues. The best way to address the high cost of treating 
drinking water, in my opinion, is to ensure the source water is 
as clean as possible to begin with. I support the Waters of the 
U.S. rule because I believe it is critical to efforts at source 
water protection. What other initiatives is the Agency putting 
considering to assist communities with preventing water 
pollution and protecting source waters?
    Ms. McCarthy. Yes. In a number of different directions. One 
of our biggest concerns is that we see a lot of spills near 
source waters and in source waters that are challenging us, 
from a drinking water perspective. We also see new pollutants 
coming in. So we are looking with States to ensure that they 
get the guidance they need, and that we do our job, in terms of 
setting national standards, so that the States who have the 
primacy, in terms of establishing their own water quality 
standards, and identifying and categorizing their own waters, 
have the information they need to protect themselves.
    We know we have had some recent spills that indicate that 
it is not enough, so we are trying to identify what other 
assistance we can give to States, and we are also trying to get 
them to think a little bit more creatively about how they plan 
their water infrastructure needs so that drinking water sources 
are protected. Plus we also get an opportunity to move forward 
with some of the challenging storm water issues that are 
contributing to some of the pollution that is entering into our 
drinking water supplies.
    Mr. Tonko. Well, again, we appreciate the partnership that 
the Agency has with the States. When you ask for those dollars 
in the budget, the budget increases somewhat. We know that a 
lot of those efforts go toward our States, so we appreciate 
that. And, again, thank you for your input here this morning. 
With that, I yield back, Mr. Chair.
    Mr. Whitfield. Gentleman yields back. At this time 
recognize the gentleman from Illinois, Mr. Shimkus, for 5 
minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. Administrator, again, 
welcome. Do you agree that--there are 84,000 chemicals listed, 
approximately, in the TSCA inventories----
    Ms. McCarthy. Yes.
    Mr. Shimkus (continuing). Is that the number? How many do 
you think are currently in commerce? Of the 84 listed, how many 
are actually used in commerce?
    Ms. McCarthy. I am sorry, I don't have the exact----
    Mr. Shimkus. Yes, and, I mean, that is part of the problem. 
That is why we are trying to move in a bicameral, bipartisan 
nature on TSCA, to try to get a handle on this. If we work with 
the industry on chemical data reporting, that should help us 
get a better idea of what that number is, do you agree?
    Ms. McCarthy. Yes.
    Mr. Shimkus. So, in your budget plan, you have--
originally--83 work plan chemical risk assessments that you 
want done by 2018. If you--I look at the budget report of--we 
have got, like--five are completed, five to 10 in '15, maybe 10 
in '16, which gives us 25. Take that from 83, that is still 58 
that, budget-wise, we don't seem to be able to get in in a 
timely manner.
    I just raise this because I appreciate the effort, but, 
again, I just want to use this opportunity, as I think we can 
get there, and this is a perfect example of how we can work 
with you, and work with my colleagues on the other side, to 
move this forward. And so--as I mentioned a couple times.
    I want to move to 111(d) debate just a little bit. And this 
is where we appreciate some of FERC's responsibility, because 
there is concern that, under 111(d), coal fired generation, 
there is going to be some decommissioning. And, as you know, 
they are major generators. They are a base load production. 
Across the country nuclear power is also stressed, and you can 
look at my own State, the State of Illinois, where the State is 
trying to go through some gyrations to make sure that nuclear 
power is still online. Has the EPA taken into consideration the 
base load loss of not just 111(d), but what could happen if we 
lose nuclear power, and what do you think could be used to 
supplant that?
    Ms. McCarthy. Yes. We actually have looked at that issue, 
and we have received a lot of comment on this as well, because 
the way in which the 111(d) analysis looks at this issue is it 
indicates that there is likely to continue to be over 30 
percent generation through coal, even in 2030, at the end of 
the target timeline under 111(d).
    But base load coal, there is no question that there are 
being investments made in that base load in order to make it 
cleaner from traditional pollutants, and we expect that base 
load to continue. And one of the biggest challenges is to make 
sure we don't do this in a way that sends different signals to 
the communities we all care about, the energy world that is 
bringing reliable and cost-effective energy. I want them, if 
they are investing in these facilities, to know that they can 
continue, and that investment will not be stranded.
    And I think we are looking very closely at that issue 
because there are many ways in which we can achieve these goals 
that don't result in lower energy generation in base load from 
coal, other than what has been projected, which is still going 
to be very strong in 2030.
    Mr. Shimkus. And we have talked about the mid-term 
standards before, and I know you have had a lot of input from 
the industry, and I would just hope that you would really look 
at those, because that could be a tipping point of moving 
things too fast, where if the end goals can be reached without 
really upsetting the apple cart in the mid-term, and, you know, 
we have talked about it----
    Ms. McCarthy. Mr. Chairman----
    Mr. Shimkus (continuing). And I know you have had----
    Ms. McCarthy. Yes. We have put out some ideas for this, and 
we have some great comments in that will allow us to address 
this issue pretty effectively.
    Mr. Shimkus. And the last thing I want to do is--I also 
want to just kind of weigh in on the RFS positively, hoping 
that we do get a standard. And I have already talked to the 
folks in my district who are concerned, and say '14, '15, and 
'16 will have something. I am sure that will be highly fought 
and angered on both sides, no matter what that is.
    But it brings me to this debate on biodiesel, and the EPA's 
authorization of importation of Argentine biodiesel without 
really having the CARBIOs established. Is this a point of one 
hand not knowing what the other hand is doing, and then how do 
we put that supply in as part of the calculation for when you 
do '14, '15, and '16?
    Ms. McCarthy. Well, RFS is going to be looking at the range 
of availability of fuel supplies of the biodiesel fuel supplies 
that are available both domestically and internationally, which 
is what the rule requires.
    In terms of CARBIO itself, you know, that decision, I 
think, was a little bit misunderstood, and we can certainly 
talk about this, but there was already biodiesel coming in from 
Argentina. What we approved was actually a more stringent way 
of tracking that to ensure that it was a renewable fuel 
consistent with the underlying RFS principles.
    And so it was not intended to open up a new market. It was 
intended to reflect the way in which the companies were 
assuring their compliance in a way that was more stringent than 
others had already been doing. And we think it is a model 
moving forward to make sure that everybody is bringing into 
this country the kind of fuel that we are trying to support 
domestically for production purposes.
    Mr. Whitfield. Gentleman's time has expired. At this time I 
recognize the gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, and Ranking Member for 
holding the hearing. Administrator McCarthy, thank you for 
being here today, and it is always good to see you before our 
subcommittee. To say that EPA has a lot on its plate is an 
understatement. The rules and regulations promulgated by the 
Agency seem to affect every sector of our Nation, and I am 
happy to ask some questions about the balance we are trying to 
strike between protecting the environment, but helping our 
business and industrial sector capitalize on what is required 
to be done.
    On April the 12th the EPA released the new source 
performance standards for volatile organic chemicals from the 
oil and gas industry. The 2012 NSPS targeted hydraulic 
fractured natural gas wells. The rule targeted VOC emissions 
reductions through green completion, and expected a yield of 95 
percent reduction, including an estimated 1.7 million tons of 
methane. My first question is, the VOC in NSPS was supposed to 
be implemented in a two-step process. Is this accurate, that 
the NSPS won't be implemented until the end of 2015?
    Ms. McCarthy. My understanding is--and I am sorry, 
Congressman, I may be counting wrong, but I think that is right 
for the full implementation we did recognize in that rule that 
there was equipment that needed to be manufactured and 
installed, and we worked with the industry to make sure we 
weren't being overly aggressive about the ability to have the 
technologies available for full implementation.
    Mr. Green. OK. Has the EPA actually quantified how much of 
the VOC reduction the NSPS has actually yielded to this point?
    Ms. McCarthy. We do have a good signal from our greenhouse 
gas reporting program that it has already been tremendously 
effective at reducing carbon pollution, because carbon 
pollution is reduced as you are capturing those volatile 
organic compounds. So we do have a very good sense that this is 
being effective already.
    Mr. Green. I understand it is already about 190 to 290,000 
tons----
    Ms. McCarthy. That is right.
    Mr. Green (continuing). Is the estimate. Has the EPA 
quantified methane reductions as a co-benefit?
    Ms. McCarthy. We have, and I can provide those numbers. I 
don't have them at the tip of----
    Mr. Green. OK. Well, I----
    Ms. McCarthy (continuing). My tongue----
    Mr. Green (continuing). Think I have them. It is about 73 
percent decrease----
    Ms. McCarthy. Excellent.
    Mr. Green (continuing). Of that, so--in January of this 
year, the White House and EPA released a strategy for reducing 
methane and ozone pollution from the oil and gas industries. 
The release stated potential sources that would be regulated 
are hydraulic fractured oil wells, pneumatic pumps, leaks as 
well from well sites and compression stations. Anyone who has 
been on a rig knows you put a hole in the ground and find oil, 
you are also most likely to find natural gas----
    Ms. McCarthy. Yes.
    Mr. Green (continuing). And the Energy Information Agency 
states that more than half of all completed wells produce both 
oil and gas. Does the EPA believe that there is an overlap 
between these two rules?
    Ms. McCarthy. We believe that there are synergies between 
the two rules, and we are going to make sure that we do not 
duplicate efforts, but we actually provide a good signal for 
those that are both producing oil and natural gas as to what 
their regulatory obligations are.
    Mr. Green. OK. In 2014 the EPA estimates indicated almost 
$200 million in additional gas could be captured and sold----
    Ms. McCarthy. Yes.
    Mr. Green (continuing). From the natural gas sector. 
Recently, producers in West Texas have started using modular 
equipment to capture the methane, separate the gas into the 
various components, and either sell as a product, or power back 
to the producer. This approach has effected an economically 
efficient way to encourage change. Methane is a product that we 
need to use. Aside from using it on-site, additional capture is 
going to require additional pipelines.
    In the budget, DOE has set aside some, but not enough, 
money to encourage additional investment in modular 
applications in pipeline infrastructure. Has the EPA done 
anything similar?
    Ms. McCarthy. EPA is working with DOE on the Quadrennial 
Energy Review to take a look at what pipelines need to be 
constructed in order to make sure that we can still continue to 
enjoy the inexpensive natural gas and the oil that is making us 
solid domestically.
    Mr. Green. Recently the White House Council on 
Environmental Quality released a revised draft guide, covering 
how Federal departments and agents should consider the effects 
of the greenhouse gas emissions and climate change in their 
NEPA studies. What are your views on how this guideline will 
affect what EPA is already doing to measure climate impacts 
from major Federal actions under NEPA? Specifically, how will 
EPA measure climate impacts under NEPA stemming from the 
construction of new natural gas pipelines?
    Ms. McCarthy. I think that it provides us an opportunity to 
be clear that NEPA is a flexible tool, and that greenhouse 
gases should be looked at which it is appropriate to do so, and 
when the impacts are significant enough to warrant it, and it 
provides us good guidance moving forward so everybody will know 
the data that is necessary to move these projects forward.
    Mr. Green. Thank you. Mr. Chairman, I have one more 
question. I will submit it, on the Superfund budgets for this 
year. We have some Superfund sites in my area, and the budget 
cuts may impact us being able to clean those up. But I thank 
you for your time.
    Mr. Whitfield. Thank you. At this time recognize the 
gentleman from Texas, Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the Chair and welcome Administrator 
McCarthy. Pardon me, a little frog in my throat.
    Ms. McCarthy. It is good to see you, Congressman.
    Mr. Olson. You as well. Ma'am, as you know, your EPA is 
taking comments on mass new standards for ozone----
    Ms. McCarthy. Yes.
    Mr. Olson (continuing). Otherwise known as smog.
    Ms. McCarthy. Um-hum.
    Mr. Olson. In Houston, we have been fighting this issue for 
decades. We have made huge strides in cleaning up our air. But 
the proposal the EPA has released will land like a ton of 
bricks, ton of foreign smog, on most of the country. Could I 
have a slide, please, first slide? If you don't have any of 
these slides, I can give you a copy, hard copy, if you can't 
read the slides when they come up here.
    [Slide follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Olson This first slide is your estimate of counties 
that will violate the proposals you have out there. Any shade 
of blue is bad. Blue counties would have a hard time getting 
permits for new factories or energy exploration, even highway 
construction. I ask unanimous consent to enter into the record 
a report from the Texas Department of Transportation, 
predicting an infrastructure mess in your proposal. Without 
objection, sir, I would like to enter that for the record.
    Mr. Whitfield. Without objection. \1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at  http://docs.house.gov/meetings/IF/IF03/20150225/
103014/HHRG-114-IF03-20150225-SD011.pdf..
---------------------------------------------------------------------------
    Mr. Olson. Thank you. I would like to tackle this ozone 
issue with some Chairman Dingell-inspired questions that 
require yes or no answers. Next slide, please.
    [Slide follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Olson This slide is from page 209 of your regulatory 
impact analysis. If you can't see that, ma'am, I have something 
for you right here, if you would like to----
    Ms. McCarthy. I am having a little bit of a hard time 
reading it. And I can't say I recognize it specifically on that 
exact page.
    Mr. Olson. 209. Yes or no, does this slide show that half 
the technology our communities need to meet the 65 parts per 
billion standard doesn't yet exist in the eastern part of 
America? Yes or no?
    Ms. McCarthy. I am sorry, I don't understand the question.
    Mr. Olson. The question, ma'am, is if we go to 65 parts per 
billion, you can't achieve that with current technology? 
Doesn't that slide show this? I mean, look at that slide.
    Ms. McCarthy. Actually, the slide--it doesn't indicate 
that--the numbers that we look at on ozone are based on 2014 to 
2016. That is how this rule would work. And, in fact, it shows 
that----
    Mr. Olson. I am sorry, ma'am, the question is yes or no. If 
you disagree, say no.
    Ms. McCarthy. I can't answer it the way you phrased it, 
sir. But I do know that with the national rules we are doing, 
and the reductions we are achieving in Nox and VOCs, that 
almost all counties will achieve an ozone standard at 70, with 
the exception of about nine in the State of California will 
continue to be challenged, but----
    Mr. Olson. OK. I am sorry, ma'am, I have to move on here. 
Next----
    Ms. McCarthy. OK.
    Mr. Olson (continuing). Slide, please.
    [Slide follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Olson Another big issue is background ozone.
    Ms. McCarthy. Yes.
    Mr. Olson. Smog occurrences can be natural, like forest 
fires, but they can be foreign, too, like from Mexican crop 
burning annually. The last time I showed you the slide of 
Chinese smog pouring into our country. I want to focus on 
another slide. Next slide, please.
    [Slide follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]   
       
    
    Mr. Olson This is your map. It shows how much ozone in our 
country comes from ``background sources'', compared to American 
sources. Anywhere from over 50 to 80 percent of ozone is 
outside of our control. You are asking us to do the impossible, 
control what we can't control. Look at that map. Again, yes or 
no, am I correct that there are almost no parts of the country 
where Americans are contributing to more than half the ozone?
    Ms. McCarthy. I don't know the answer to that question, 
sir.
    Mr. Olson. OK. Yes or no, am I correct that Chinese 
emissions have increased in recent years, gone up?
    Ms. McCarthy. That is true.
    Mr. Olson. That is yes?
    Ms. McCarthy. That I am aware of.
    Mr. Olson. I would like to submit for the record whether 
EPA's budget allows more staff to handle petitions on foreign 
pollution, like from China. Someone can do that for me?
    Ms. McCarthy. Actually, no States are being asked to reduce 
emissions that are background levels coming from another 
country, so we will be working----
    Mr. Olson. You don't know how your budget addresses foreign 
sources of ozone? Can I get that from you sometime in the near 
future--14 seconds left here, I want to talk about the 
exceptional impacts rule.
    Ms. McCarthy. Yes.
    Mr. Olson. It allows the EPA to remove some natural 
resources of ozone from its calculations. And, yes or no, you 
rely on the exception rule to make these rules achievable? Is 
that a weapon you have to make your new standards viable? 
Exception of resources? Can that make these new standards 
viable? Because----
    Ms. McCarthy. I think you are----
    Mr. Olson (continuing). Right now, they are not viable.
    Ms. McCarthy. I think you are referring to exceptional 
events----
    Mr. Olson. Yes, ma'am.
    Ms. McCarthy (continuing). Which has been part of our 
program since day one, and we are trying to make sure that 
States can easily access our ability to have exceptional events 
documented so that they can make sure that they don't interfere 
with the State plans for implementing the rule.
    Mr. Olson. And one question I will submit for the record, 
one final thing, Mr. Chairman, I ask unanimous consent to 
introduce a document from the Texas Commission on Environmental 
Quality that goes into great detail about the exceptional 
events process in my home State, the fact that we are 0 for 10 
the past 5 years. Only three have been answered. Seven have not 
been answered. So, again, that is not viable to control ozone. 
In our----
    Ms. McCarthy. Well, Congressman, I am----
    Mr. Olson (continuing). Real experience in----
    Ms. McCarthy (continuing). Happy to work on----
    Mr. Olson (continuing). Texas we are 0 for 10.
    Ms. McCarthy. OK.
    Mr. Whitfield. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. At this time I recognize the gentleman from 
New Jersey, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. Madam Administrator, 
with just a small fraction of the Federal budget, the EPA 
tackles the enormous task of protecting communities across the 
country, ensuring clean air to breathe and safe water to drink, 
and they do all this by partnering with States and localities, 
providing essential funds for environmental protection at all 
levels. I just wanted to highlight a few of these important 
activities.
    First, I would like to discuss the work EPA does to clean 
up land and protect vulnerable communities. This budget 
includes more funding for Superfund cleanups than last year. 
What might that funding mean for minority communities and low-
income communities living around Superfund sites? Are there 
other resources included in the budget for vulnerable and 
overburdened communities also, beyond the Superfund?
    Ms. McCarthy. Yes. I think there are significant resources 
in this budget to help communities that have been underserved, 
or have been left behind in some of our national efforts to 
reduce pollution. This will help us get at potentially another 
25 sites, moving forward to cleanups that are going to be ready 
for the cleanup stage in the coming year. So it is an increase 
in our Superfund budget that is going to be significant.
    And we all know that many of the communities surrounding 
Superfund sites actually are low-income areas. They are 
communities of color that deserve to have the same protections 
as everybody in this country enjoys. And that is what this is 
all about.
    Mr. Pallone. I appreciate that. I think this funding is so 
important for health safety and the economies of these 
communities. And I would suggest to the Chairman that the 
committee, at some point, hold a hearing on environmental 
justice to learn more about the risks that these communities 
face.
    Another source of risk for people in these communities, and 
all communities, are unsafe and untested chemicals in our 
products and our environment, and that is why I believe that 
TSCA should be a priority, or strengthening TSCA should be a 
priority. This budget includes significant funding for chemical 
risk assessment and management, and for computational 
toxicology. Can you briefly describe how funding for 
computation toxicology and chemical risk assessment will 
protect human health and the environment?
    Ms. McCarthy. Nice job. Yes, I can. In fiscal year 2016, 
EPA is requesting an increase of 12.4 million for computational 
toxicology research. I think, you know, that this is an 
important step forward because it really strengthens our 
ability to get more chemicals assessed in a quick way. It has 
potential to significantly eliminate animal testing, which 
takes a very long to actually reap the benefits we need to 
ensure that we can do these chemical assessments quickly.
    It is a significant step forward, and it is cutting-edge 
science being done at EPA, and it is a wonderful opportunity 
for us to address the toxicity in chemicals and make sure that 
our public health is being protected.
    Mr. Pallone. Well, thank you. And, again, I would suggest 
to the chairman and the committee that there be a hearing on 
computational toxicology to better understand these techniques, 
and their potential to change the debate on TSCA reform.
    Last, I just wanted to touch on one of the greatest, if not 
the greatest, environmental challenge of our time. The EPA has 
provided tremendous leadership to understand, address, and 
mitigate the effects of climate change, and Congress has not 
been a partner in those efforts. Instead, Congressional 
Republicans have taken every opportunity to undermine them.
    So, Administrator McCarthy, we are hearing lots of negative 
claims about the Clean Power Plan, and the new ozone standards, 
but both of these rules are just in the proposal stage. And at 
every turn I hear about how you have an open door policy, and 
are a great listener. I also know that industry claims about 
costs and economic effects are frequently overstated, and the 
benefits of acting are usually understated. I think we need to 
act on climate change, and the Clean Power Plan is a key part 
of that, but some just want to criticize.
    I just want to put you on the spot here and ask you if you 
are fully committed to developing a workable plan with States 
and industry that ensures reliability of the grid, and will you 
work with Members on that, and would you be willing to testify 
before the committee about your plan?
    Ms. McCarthy. Yes, I am, Mr. Chairman.
    Mr. Pallone. All right, I appreciate that. Thank you, Mr. 
Chairman. I yield back.
    Mr. Whitfield. Gentleman yields back. At this time 
recognize the gentleman from Pennsylvania, Mr. Pitts, for 5 
minutes.
    Mr. Pitts. Thank you, Mr. Chairman.
    Madam Administrator, when the EPA wrote the rules for RFS 2 
in 2010, it acknowledged that the reasons for placing the 
compliance obligation on refiners who don't blend renewable 
fuel, instead of on blenders who do, was an outdated holdover 
from the 2007 RFS 1 rules. Changing the definition of obligated 
party could help to advance the goals of the program, and 
correct some of the problems we are seeing with the current 
program. EPA did a significant amount of work on this issue in 
2009 and 2010.
    My question is, do you agree it would be timely and useful 
to include and accept public comment on a proposal to shift the 
compliance obligation as part of the current 2014, 2015, 2016 
rulemakings?
    Ms. McCarthy. Well, I do know that that is a comment that 
we received on the 2014 proposal we put out last year. It is my 
interest to make sure that we move forward with the 2014 rule 
as quickly as we can. I think it is important for the stability 
of the renewable fuel industry. But I am sure we will be 
looking at those comments closely as we move forward.
    Mr. Pitts. One of the problems with this program is that it 
requires the EPA to make predictions each year on two highly 
uncertain things, first, how much transportation and fuel will 
be consumed in the following year, and second, how much 
renewable fuel will be used. When EPA gets these predictions 
wrong, as it did in 2013, the result is exorbitant prices for--
economic hardships for merchant refiners, and windfall profits 
for blenders. CBO has told us escalating RFS mandates will lead 
to higher gas prices at the pump.
    EPA's decision to delay the 2014 rule until 2015 created 
unnecessary uncertainty for all stakeholders, but there may be 
a silver lining. For 2014, EPA won't have to guess how much 
transportation or renewable fuel was used. The year will be 
over, and EPA can set the standard based on what actually 
happened. So my questions are will EPA set the 2014 mandates 
based on the actual consumption of transportation and renewable 
fuels?
    Ms. McCarthy. Actually, sir, I am not able to answer that 
question because we are not yet through an interAgency review, 
and able to release it finally. But we will be addressing that 
question clearly.
    Let me just say that the courts have been very clear to us 
that we need to follow the direction of the EIA in terms of our 
projections, and we have been true to doing that, and we will 
make sure that we continue to do that. And we will also move 
forward with 2014, recognizing that it wasn't completed as a 
final rule in time to generate the incentive to go beyond what 
was already generated, and I recognize that.
    Mr. Pitts. Will EPA combine the 2014, 2015, 2016 mandate? 
If so, do you believe EPA has the statutory authority to do so? 
If you do, I would like to have you cite the authority.
    Ms. McCarthy. Yes, we do know that the statute requires us 
to put out annual levels, but there is a great interest in 
making sure that we send signals to the market in a way that 
allows all of the participants to be prepared for the numbers 
that might come forward.
    Mr. Pitts. Earlier this year EPA tied the 2013 compliance 
deadline to the issuance of the final 2014 rule, and this 
allowed obligated parties to make informed decisions about 
using 2013--for 2013--or 2014 compliance. And the rationale for 
delaying the 2013 compliance deadline is equally applicable to 
2014, and each year following. Will EPA tie the 2014 compliance 
deadline to the issuance of a final 2015 rule? And what about 
subsequent compliance deadlines?
    Ms. McCarthy. As you indicate, Congressman, we know that 
this is an issue that is important. We have addressed it 
before. We are going to continue to address that issue moving 
forward in our proposed rules.
    Mr. Pitts. Well, how will the compliance deadline be 
impacted if EPA combines the 2014, 2015 rules?
    Ms. McCarthy. Those are issues that we would need to 
resolve if we intend to do that. I did not indicate that. But 
certainly we know that, in a market as large as this, and for 
research and investment purposes, it is difficult to always 
wait for an annual rule to come out and be finalized, and we 
want to make sure that we are providing as much signal as we 
can moving forward.
    Mr. Pitts. Thank you. My time has expired.
    Mr. Whitfield. At this time we will recognize the 
gentlelady from California, Ms. Capps, for 5 minutes.
    Mrs. Capps. Thank you for recognizing me. And before I 
begin, it is always a pleasure to have former colleagues join 
us. Pleased to have you in the audience today. Administrator 
McCarthy, thank you for your testimony, and for being here 
today, and I want to address several topics, mostly around 
climate change, the effects of which are far reaching, 
interconnected impacts on our environment, human health, and 
the economy, and I am pleased that you have made this at EPA 
such an important priority. I want to address the fact that 
there are both large scale and smaller scale efforts in the 
community level, which are important in addressing climate 
change.
    In your fiscal year 2016 budget for EPA, budget request, 
you propose implementing a locally targeted effort, with 
regional coordinators, and the so-called circuit riders, to 
ensure that communities have the resources. In other words, 
being there on the site to see. Will you please briefly 
describe this proposal, and how will it help our local 
communities?
    Ms. McCarthy. I will. This is an effort to try to work with 
communities and States, frankly, at the community level to look 
at climate resilience. We are learning a lot as we go across 
the country and talk about these issues, and we have identified 
having circuit riders, which are trained individuals in this 
particular field, and have them more nimble and available to go 
out to communities moving forward who are considering issues 
that would have the wealth of tools at their fingertips that 
EPA and others have provided.
    We think it is a real opportunity to stretch our resources, 
and make them accessible to local communities in a way that 
will be much more productive than we have before, and we are 
requesting resources to support that.
    Mrs. Capps. Thank you. EPA's Clean Power Plan is a very 
commendable effort to address both air quality and climate 
change. And, you know, there are numerous studies through EPA, 
but in other sources too, showing that the Clean Power Plan 
will be able to significantly address public health through 
reducing carbon pollution, and from the co-benefits of improved 
air quality. Can you elaborate? Give us a comparison here. What 
are the expected human health benefits from such a Clean Power 
Plan?
    Ms. McCarthy. Yes. The human health benefits relate to a 
number of things. One is that we know that vectors of disease 
are changing, in terms of their territories. We know that 
allergy seasons are getting larger. We know that ozone is going 
to be a more difficult issue moving forward as the weather gets 
warmer, and there is more ozone being produced. And all of 
these things directly relate to people's health.
    So climate change is a significant public health problem. 
It should not be looked at as simply a natural resource issue--
--
    Mrs. Capps. Um-hum.
    Ms. McCarthy (continuing). And it also is clearly an 
economic challenge----
    Mrs. Capps. Um-hum.
    Ms. McCarthy (continuing). Particularly for those families 
that are struggling with their kids that have asthma.
    Mrs. Capps. Right.
    Ms. McCarthy. We have significant responsibility to protect 
those children, and give them a future that we can be proud of.
    Mrs. Capps. Agreed. And now to address the concerns that 
many of my colleagues have raised regarding the costs of 
implementation, and the costs of energy that they believe will 
affect lower and----
    Ms. McCarthy. Yes.
    Mrs. Capps (continuing). Middle-class families--income 
families. We, of course, want to keep energy affordable, so 
could you give us a comparison of the costs and benefits of the 
Clean Power Plan?
    Ms. McCarthy. In 2030, the benefits of the Clean Power Plan 
will range anywhere from $55 to $93 billion in benefits, 
compared to costs of $7.3 to $8.3 billion. It is a significant 
benefit. And the one thing I want to make clear of, again, is 
that I consider these to be investments in the future. I 
consider these to be investments in clean economy and job 
growth.
    Mrs. Capps. Once the investments are made, they keep 
giving----
    Ms. McCarthy. They certainly----
    Mrs. Capps (continuing). And they keep benefitting. Just 
one final question. These are important priorities, but also 
important is clean drinking water. And, in a way, it relates, 
but there are so many challenges today to the availability of 
safe drinking water. And I think of the lack of it in 
California, where----
    Ms. McCarthy. Yes.
    Mrs. Capps (continuing). Drought is such a problem. How 
does this budget provide for the enhanced resiliency that our 
water infrastructure needs in--for various needs across this 
Nation, again, highlighting the local communities?
    Ms. McCarthy. Yes. Again, we are working with local 
communities to help coordinate their response to climate 
change, and we are also significantly boosting our contribution 
to drinking water SRF funds. Because we know that it is not 
just about thinking of these things, it is about actually 
supporting it, bringing dollars to the table.
    And we are really excited about the new finance center as 
well, and our ability to bring private dollars to the table. 
This is an economic challenge that isn't just the 
responsibility of the Federal, or local, or State governments. 
This is the responsibility of the business community as well.
    Mrs. Capps. So you----
    Mr. Whitfield. Gentlelady's time----
    Mrs. Capps. Yes.
    Mr. Whitfield (continuing). Has expired.
    Mrs. Capps. Sorry. Thank you.
    Mr. Whitfield. It is all right. I also want to welcome our 
former colleague, Kenny Holchoff. I might say that, since he 
has left, I don't think the Republicans have won one baseball 
game, but we are delighted he is back today.
    At this time I would like to recognize the gentleman from 
Pennsylvania, Mr. Murphy, for 5 minutes.
    Mr. Murphy. Thank you, Mr. Chairman. Welcome here, ma'am.
    Ms. McCarthy. Thank you.
    Mr. Murphy. When the EPA came out with their rule on new 
source performance standards, you cited a number of examples to 
show the EPA's standards are feasible. I want to run over some 
of these examples, and let you just respond with a yes or no if 
you are aware of them. For example, yes or no, are you aware 
that the partially funded Kemper Project is $3 billion over 
budget?
    Ms. McCarthy. I am aware that it is over budget, yes.
    Mr. Murphy. OK. And you are aware that the Future Gen 
project in Illinois was discontinued?
    Ms. McCarthy. I am aware of that.
    Mr. Murphy. OK. And you are aware that the Texas Clean 
Energy Project hasn't broken ground yet?
    Ms. McCarthy. I am not exactly up to speed on that one, 
sorry.
    Mr. Murphy. OK. But something that was cited in the report. 
You are aware that the Hydrogen Energy California Project 
doesn't use coal, but actually uses petroleum coke? Are you 
aware of that?
    Ms. McCarthy. No, sir.
    Mr. Murphy. OK. Are you aware that the final project the 
EPA cited for providing techno-feasibility for new coal fired 
power plants was a 110 megawatt Boundary Dam facility in 
Saskatchewan, Canada? It is not actually a new plant at all, 
but is, in fact, a retrofit. Are you aware of that?
    Ms. McCarthy. I am aware that it is a good example of one 
that is up and operating pretty effectively, and better than 
they thought.
    Mr. Murphy. But it is a retrofit, and it is not the United 
States. And the Canadian Center for Policy Alternatives, which 
supports the CCS mandates, issued a report this month stating 
that the Boundary Dam project was twice as expensive as 
alternate generating methods, which will make it significant 
more expensive for families, and may jeopardize the owner's 
financial viability to even complete it. Are you aware of that?
    Ms. McCarthy. I haven't seen that, sir.
    Mr. Murphy. OK. So, in this 2005 Energy Policy Act behind 
me, which talks about--it has to be adequately demonstrated. 
And references have been made before in the Federal Register--
it said you have to use the best system of emission reduction 
adequately demonstrated available to limit pollution. But it 
appears in all the projects that I just went over, that are 
cited by the EPA, they haven't been completed, some haven't 
been started, one has been discontinued, one isn't even in this 
country, and none of them are large scale. As to one of them, 
for example, only captures 13 percent of the EPA--excuse me, of 
the carbon.
    So my concern is--and you have said you want to stay true 
to the rule, and the courts, et cetera----
    Ms. McCarthy. Yes.
    Mr. Murphy (continuing). But I am not sure that the EPA is 
actually following the law on this. So I want to know, are you 
reviewing anything to withdraw the rule and start over, so you 
can really adhere to projects which are viable, and can work us 
towards this goal?
    Ms. McCarthy. I think the projects you identified are a 
number of projects that have been moving forward, and we can 
talk about each one that I am familiar with, which are most. 
But the record that EPA produced in our proposed rule went well 
beyond data from those facilities. We feel very confident that 
this technology is available. We feel very confident that the 
use of CCS technology, at the levels that we are proposing it, 
will be a viable option for coal to continue to be part of the 
future of this and other countries, and that we are supporting 
investment in CCS through our Department of Energy----
    Mr. Murphy. Well, and then this is where you go back--and, 
Mr. Griffith, could you slide a little bit? This is where you 
refer to this investment opportunity issue. I am not sure, what 
does investment opportunity translate to?
    Ms. McCarthy. It means that----
    Mr. Murphy. States putting money in----
    Ms. McCarthy. Generally pollutants are captured by end-of-
pipe pollution controls, which are often direct costs for 
facilities. We have designed our Clean Power Plan in a way that 
allows you to invest in renewable energy, invest in energy 
efficiency, make decisions at the State level that are 
consistent with----
    Mr. Murphy. Well, the key----
    Ms. McCarthy (continuing). Your energy economy----
    Mr. Murphy (continuing). Operative word here is you invest, 
but we want to make sure that things are--these viable, that 
people can actually do them.
    Ms. McCarthy. That is----
    Mr. Murphy. And what you are citing here are projects that 
people are saying are either going to bankrupt the company, or 
stopped, haven't been going on. So I am not sure, when you say 
investment opportunity, with someone else's money, it is a 
problem. But let me bring something up, because one of those 
agencies that----
    Ms. McCarthy (continuing). In new coal, other than 
investing in this----
    Mr. Murphy. But you have to make investments--things that 
can really work. We can make up Alice in Wonderland here, but I 
want to make sure it works.
    Are you aware that in September 2013 the National Energy 
Technology Labs alerted the EPA in writing that your estimates 
are outdated? NETL comments, ``We believe current cost of CCS 
is not accurately represented.'' They even included update data 
for inclusion in the rule. They found that CCS would cost an 
average of $170 per megawatt, and at the high end, $213 per 
megawatt. That is about 30 to 60 percent higher than the cost 
estimate EPA put out there. So I am wondering why you are 
ignoring what this other Federal Agency is saying. It would be 
facts out there that you should be paying attention to.
    Ms. McCarthy. Sir, you are citing a document that was prior 
to our putting out the proposal. We worked very closely with 
NETL back and forth on how we would best represent the costs 
associated with these technologies, and I believe we included 
our best judgment. And our technology folks are very good, and 
we align very well with the DOE and put the best proposal 
forward.
    And we are looking at all those comments. You are citing a 
proposal, not a final, and we will certainly take consideration 
of all those issues as we----
    Mr. Murphy. And I hope you will pay attention to law, which 
says it has to be adequately demonstrated. And I am not sure we 
are there yet, so I look forward to talking with you more.
    Ms. McCarthy. I understand.
    Mr. Murphy. I will submit more questions for the record.
    Mr. Murphy. Gentleman's time----
    Ms. McCarthy. Thank you, sir.
    Mr. Murphy (continuing). Has expired. At this time we will 
recognize the gentlelady from Florida, Ms. Castor, for 5 
minutes.
    Ms. Castor. Thank you, Mr. Chairman. Administrator 
McCarthy, thank you for joining us today, and thank you for 
your important work in protecting America's public health, and 
our natural environment.
    American families and businesses continue to save money at 
the gas pump in part because of the improvement in the fuel 
economy in the vehicles that we drive. I found this good 
infographic from energy.gov that provides a historic look at 
the standards, because they are set periodically to ensure that 
vehicles are keeping up with the times, and this is a nice 
little snapshot. It says 1978 the standard was 18 miles per 
gallon. Boy, that seems outdated now. 1985, 27.5 miles per 
gallon. Then 2011, up to 30.2 miles per gallon. And 2016, 35.5 
miles per gallon.
    Now, I really appreciate that the administration has 
continued to push here, because what we have seen is 
revolutionary in the types of vehicles that are available to 
consumers right now. So you have the benefits that, when you 
get better gas mileage, you are reducing carbon pollution. The 
transportation sector is almost 50 percent of carbon pollution. 
You are putting money right back into the pockets of American 
families because they are getting more miles per gallon, and 
then it is reducing fuel costs for businesses.
    Do you have any recent hard data on the savings for 
American families and businesses? And then I want to talk about 
what the future goals are.
    Ms. McCarthy. Well, we certainly can talk about what the 
projections are, relative to the rules that we have done in the 
first term of this administration. But I think the proof in the 
pudding, if you will, is that you can't see a car commercial 
where they don't talk about energy efficiency, because the car 
companies now know that everyone wants fuel efficient vehicles, 
and that we have designed our rules that allow even SUVs to 
become more fuel efficient and remain part of the fleet, if 
people need the sort of characteristics that those vehicles 
provide.
    So we know that people are already going further on a 
dollar driving their vehicles, and we know that by the end of 
2025 we will have doubled the ability to actually make that 
dollar go far, to provide essential services to our families, 
so----
    Ms. Castor. Because the goal for 2025 is 54.5----
    Ms. McCarthy. That is right.
    Ms. Castor (continuing). And I know the administration has 
set the first ever fuel economy standards for medium and heavy 
trucks. Just last week----
    Ms. McCarthy. Yes.
    Ms. Castor (continuing). The President called on EPA to 
develop and finalize the next phase of these standards, 
building on the success of the initial fuel economy standards 
for heavy duty vehicles. What are the expected benefits of the 
new standards? What cost savings will consumers see?
    Ms. McCarthy. Yes. Well, on the heavy duty vehicles, we put 
forth a first phase, if you will, recognizing there was a lot 
of ongoing work to make our heavy duty vehicles more efficient. 
I think it might surprise people to know that the long term 
truckers get about six miles per gallon, so they are dying for 
more efficiency in the system as well.
    I do not have those exact figures yet, but we know we can 
make a significant leap forward. But we are working with the 
industry now to put together a proposal that recognizes that 
the challenge in this industry is to try to take advantage of 
the new technologies that are available that can increase fuel 
efficiency, but we also recognize that they are commercial 
businesses that need to remain viable and affordable. And we 
are trying to make sure that we recognize that balance as we 
work with DOT to put these rules forward.
    Ms. Castor. Thank you very much. I have another quick 
question on your new proposed incentive fund under the Clean 
Power Plan. You know, coming from the State of Florida, the 
costs of the changing climate are kind of scary as we look out 
in future decades.
    And I wanted to ask you particularly about water 
infrastructure and waste water infrastructure, because--think 
of all the coastal areas and local governments in Florida. They 
are looking at having to do very significant retrofits. I am 
not sure that your new incentive fund would allow us to go to 
that pot of money for those kind of water infrastructure, waste 
water infrastructure, updates and retrofits. Are we--is that a 
possibility, or do we need to look at the more traditional 
revolving loan program?
    Ms. McCarthy. No. There are actually climate resiliency 
funds set aside in other parts of the budget, and why don't I 
make sure that I provide you the information? The incentive 
fund that I was referring to was to try to make it attractive 
and encourage States to go further or faster than the rules 
require, because we still want to make sure that they are 
reasonable for everybody, but some States are prepared and 
ready to move forward faster. And we want to make sure that 
those States are rewarded for that.
    Ms. Castor. Would that include things like smart meters? 
Like, my State has been very slow going in trying to empower 
the consumers to control their thermostat, and things like 
that.
    Ms. McCarthy. We haven't yet defined fully because we want 
to make sure we work with States about what the best way to do 
it is. But what you have to articulate is that that is an 
opportunity to reduce demand----
    Ms. Castor. Um-hum.
    Ms. McCarthy (continuing). For electricity, or, in other 
words, get more efficient, which that clearly would. Or else 
you--but there is lots of flexibility to use it for direct 
infrastructure improvements as well. So it all just has to be 
tied back to that carbon pollution standard.
    Mr. Whitfield. Gentlelady's time has expired. At this time 
recognize the gentleman from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you, Mr. Chairman, really appreciate 
it. And, Madam Administrator, thanks for being with us today. I 
am going to kind of go back to Chairman Emeritus Dingell, if I 
could ask you a series of questions real quick. And I think you 
have been here when he has asked you the--a yes and no 
question.
    Ms. McCarthy. I have tried.
    Mr. Latta. OK. But under the proposed Clean Power Plan, if 
a State does not file a SIP, does EPA claim authority to 
regulate the following under a FIP? And the first question is, 
does the EPA claim authority to mandate that coal fired 
generators run less, and that existing gas fired generators run 
more? And that is assumed under the Building Block 2.
    Ms. McCarthy. I am sorry, I certainly can answer those 
after I give them some thought, but it is hard to do a yes or 
no answer to that question.
    Mr. Latta. OK. Number two, does the EPA claim authority to 
mandate that fossil fuel generators run less, and that 
renewable generators run more? And that is assumed under 
Building Block 3.
    Ms. McCarthy. EPA certainly has the authority, in a Federal 
Implementation Plan, to establish standards for carbon 
pollution for those individual sources. How they choose to 
address those reductions of----
    Mr. Latta. Would that be--would you be saying that would be 
a yes, then, to the question?
    Ms. McCarthy. We have the authority to set a standard. The 
facility itself decides how to meet that standard.
    Mr. Latta. OK. Let me ask this finally, then. Does the EPA 
claim authority to make the general public use less 
electricity? And that is assumed under Building Block #4.
    Ms. McCarthy. We certainly do not regulate the behavior of 
the public sector in this rule.
    Mr. Latta. Well, I think, as you have mentioned, especially 
going back to the first one, Mr. Chairman, if we could get 
those in writing for more of an explanation----
    Ms. McCarthy. I am happy to----
    Mr. Latta (continuing). I would appreciate it. In 2013 coal 
fueled approximately 70 percent of electricity generation in my 
home State of Ohio. Under the Clean Power Plan, will EPA grant 
a waiver of exception if there is a grid reliability risk or a 
high cost to the rate payer issue that would happen?
    Ms. McCarthy. Yes. EPA does not see the rule, as it has 
currently been proposed, to have an impact on reliability. But 
as we have done in the past, we will ensure that the tools are 
available to us, should anything arise.
    Mr. Latta. So that would be a yes, that there would be 
waivers or exceptions granted?
    Ms. McCarthy. We would be able to work through the issues. 
Whether it is a waiver or another process, the tools are 
available to us, and we would----
    Mr. Latta. And, again, if we could--if--especially with 
those tools, because it is really important, especially in my 
State, because of the high usage of coal, that there would be 
the waivers necessary. So if you would get back to us on that?
    The existing ozone standards were issued in 2008, but are 
just now being implemented by States, as guidance was just 
released last week. I have major concerns that you are going to 
forward proposing stricter standards before the current rule is 
even implemented. And then, again, am I correct that States 
have not fully complied with those standards from the 2008?
    Ms. McCarthy. That is correct. There are--there is quite a 
long horizon for States to be able to work on these issues.
    Mr. Latta. And what percentage, or how many States would 
have complied by now with the 2008----
    Ms. McCarthy. I am sorry, sir, I don't have that at my 
fingertips, but----
    Mr. Latta. OK.
    Ms. McCarthy. You know, States go through a designation 
process, which we have done. There is an implementation rule 
that has been put out as well, so we will be working on that. 
And it does not conflict to continue to keep looking, as the 
statute requires, at the standard itself and whether it is 
sufficiently protective.
    Mr. Latta. OK. Well, if you could also get back to the 
committee, especially what States have not complied, and which 
ones have, that would be very useful to the committee.
    EPA has also stated that they do not know the cost to reach 
the current standards, and will not know until the State Clean 
Air Plans are submitted in 2016. And the question is how can we 
have any confidence in the Agency in--estimates of the cost to 
implement the new proposed standards?
    Ms. McCarthy. Well, we actually do estimate the costs 
associated with strategies where we can't particularly identify 
it, but we do work very closely with our economists to make a 
good faith effort. But, again, what we are doing here is 
illustrating what States might do, but the rule itself, the 
rule that we are doing to set a standard, is only about what we 
believe is necessary to protect public health with an adequate 
margin of safety.
    Mr. Latta. OK. And finally I would like to just ask this--
back to the Clean Power Plan, Assistant Administrator McCabe 
has stated that transmission and distribution efficiency, or 
other opportunities to reduce CO<INF>2</INF> emissions beyond 
the building blocks. Does the EPA claim authority to require 
owners of transmission and distribution facilities to increase 
their operating efficiency, and if so, by what authority?
    Ms. McCarthy. No. I think that Assistant Administrator 
McCabe was mentioning the fact that we have provided 
flexibility in that Clean Power Plan so that even if it is not 
the building blocks that are achieving the reductions in--and 
which--those are setting the standard, there are many ways in 
which States can achieve those standards outside the boundaries 
of those building blocks, and we are encouraging that 
flexibility to be considered.
    We are not encouraging any State to do anything that they 
don't consider that is right, and cost effective, and 
reasonable for them to do. There are just lots of choices, and 
it is maximum flexibility on what States want to do.
    Mr. Latta. Thank you. And, Mr. Chairman, my time has 
expired, and I yield back.
    Mr. Whitfield. Gentleman's time has expired. At this time 
recognize the gentleman from Kentucky, Mr. Yarmuth, for 5 
minutes.
    Mr. Yarmuth. Thank you very much, Mr. Chairman. Welcome, 
Administrator----
    Ms. McCarthy. Thank you.
    Mr. Yarmuth (continuing). McCarthy. I want to start by 
asking you about mountaintop removal mining, which is a process 
that poses very serious risk to the health and welfare of 
Appalachian communities. I was pleased to note that in your EPA 
budget justification you mentioned two recent court victories 
concerning mountaintop removal mining, but there is still a lot 
to be done. What resources will be available under this budget 
to help communities endangered by mountaintop removal mining?
    Ms. McCarthy. I am sorry, I don't have it broken down that 
way, but I am happy to take a look at this for you, and to work 
with your staff on getting you more specific numbers. But it is 
an issue that is of concern, and we have been working through 
these issues.
    Mr. Yarmuth. Yes, I appreciate that very much. Earlier 
today the--Chairman Whitfield mentioned the cap and trade bill, 
Waxman-Markey, which he characterized as having been rejected 
by the Congress, which is one way to characterize it. In fact, 
it did receive a majority of votes in both the House and the 
Senate. It was only killed because of Republicans in the Senate 
who filibustered that bill. Is it fair to say that if Waxman-
Markey had been enacted into law, and not been stopped by 
Senate Republicans, that we would not be involved with clean 
power rules right now?
    Ms. McCarthy. In some ways that might be the case, but I 
don't know that for sure, sir, because the Clean Air Act really 
is our responsibility to implement. It might have impacted the 
choice considerably and the requirements to move forward.
    Mr. Yarmuth. Well, I want to talk a little bit more about 
the Clean Power Plan, and Kentucky, my home State, and the home 
State of the chairman. I was really pleased to see yesterday 
Len Peters, who is the Secretary of Energy and the Environment 
in Kentucky, praising your work, the Agency's work, in reaching 
out with--to the States on the Clean Power Plan. He said, I am 
from Kentucky, and I am not a climate science denier, but what 
EPA has done with outreach in leading up the proposed 
regulation, the outreach they have done, I think is incredible. 
He talked about your open door policy. He said, you could call 
them, talk to them, meet with them, and we did take advantage.
    He went on to say, well, we have already started the 
process of determining what a compliance plan would look like. 
I truly appreciate the outreach that the EPA has made to 
Kentucky and other States, and, obviously, States face very 
different challenges in cutting carbon pollution. We in 
Kentucky are increasing our use of cleaner and less expensive 
fuels, such as natural gas, but we still generate most of our 
power from coal. I know that EPA recognizes that this is not a 
one-size-fits-all solution. Can you discuss how the funding in 
your 2016 budget request will be used to assist States with 
implementing the Clean Power Plan?
    Ms. McCarthy. Sure. We have, actually, a $25 million 
request in our budget to work directly with the States on the 
implementation of this rule, and we have an overall request to 
ensure that we have the staff available to be able to work with 
the States, and to take a look quickly at the plans to make 
sure there is no delay in sending all the right signals about 
how to move this forward.
    Can I just say that Len Peters is a very honorable man? His 
advantage in Kentucky is he looks at both energy and 
environmental issues together, and I think it provides an 
advantage for the State to see that these plans can be done, 
and actually will provide benefits to the State, in terms of 
the utilization of energy supplies that are both effective for 
a reliable and cost-effective supply, but also can be designed 
to be effective in reducing pollution that impacts their 
health.
    Mr. Yarmuth. Um-hum. So you obviously think that States 
like Kentucky, which are coal dominated, can benefit from the 
funds that would be appropriated----
    Ms. McCarthy. They----
    Mr. Yarmuth (continuing). Under this budget?
    Ms. McCarthy. They absolutely can, as well as the incentive 
fund that the President has proposed in this budget, which is 
$4 billion. And I think that we have designed this in a way to 
recognize that Kentucky doesn't, and shouldn't, have the same 
standard that other States that aren't so heavily reliant on 
coal have. So we have designed it in a way that we think is 
achievable from the get-go, but also is flexible enough to 
allow folks like Len Peters to get his arms around it and make 
it work.
    Mr. Yarmuth. OK. Well, I appreciate the flexibility that 
EPA has shown, and, again, the cooperation that you have 
exhibited with Kentucky and other States. I appreciate that 
very much. I yield back.
    Mr. Whitfield. Gentleman yields back. At this time 
recognize the gentleman from West Virginia, Mr. McKinley, for 5 
minutes.
    Mr. McKinley. Thank you, Mr. Chairman, and thank you again, 
Administrator, for appearing before us. Let me start with a 
question, perhaps, directly at--has the EPA ever made a 
mistake?
    Ms. McCarthy. I am quite sure.
    Mr. McKinley. Do you think any of those mistakes have led 
to a job loss?
    Ms. McCarthy. I can't answer that question. We certainly do 
our best not to make mistakes in the first place, and the 
data----
    Mr. McKinley. OK, but----
    Ms. McCarthy (continuing). That we see----
    Mr. McKinley (continuing). It is just that----
    Ms. McCarthy (continuing). Shows that job loss is not a 
consequence of environmental rules.
    Mr. McKinley. I want to make sure that you understand, and 
the public--I don't think there is a will in Congress to do 
away with the EPA.
    Ms. McCarthy. That is good----
    Mr. McKinley. You hear that a lot. I, you know, some of 
the----
    Ms. McCarthy. Thank you.
    Mr. McKinley. I don't think there is the will to do that. I 
think that many of us here recognize that the EPA has helped 
lead the way for clean air and clean water. But there is 
reaching a point someplace in this balance that we want the EPA 
to be more responsible, and to be more receptive to the impact 
your decisions are having on families. And I think you are 
missing the point. Just two examples with that is--that I could 
is that--the timing of your additional regulations, and the 
second, the use improper or flawed models that you are using.
    Let me just touch on the timing issue. There is an adage 
that we use often, and all of us have used in raising families, 
is just because you can doesn't mean you should. And we know 
the EPA has the ultimate power to issue any regulation, and you 
well know that Congress doesn't quite have the--we don't have 
the votes here to be able to overturn that. So whatever you are 
issuing, it is becoming the law the land with your regulation. 
So there is a time and place for everything, and I am just 
concerned that maybe the EPA has gotten a little bit more 
aggressive than they should be with it.
    I come from West Virginia, and that is part of rural 
America. That is the main street. Wall Street may be having 
great success, but rural America, Main Street, is still 
struggling, and yet I keep seeing the EPA putting another 
regulation on top of another regulation. And the ozone rule, 
they barely have achieved the first--they increased that 
standard again. I think what it has led, by these over-
regulation--in rural America it has led to people--their well-
being, their mental health, is all being affected by it. I 
think we are having some depression in areas around the country 
because of the threats of regulations, what it is doing to 
jobs. I think we are seeing more and more people working part 
time. They are underemployed. It could go on, and on, and on, 
and I really believe it is directly attributed to the 
regulatory body with it.
    I think all of us know a Mildred Schmidt. She probably 
lives right next door to you. She lives next door to me in 
Wheeling, and someplace--Mildred Schmidt sits at her kitchen 
table, she wants clean air and clean water, but her first and 
foremost request, I want a job for my son. I can't find a job 
because either the coal mines are pulled back, or the steel 
companies, the chemical--something is shut down as a result of 
over-regulation. And I am struggling with that. I have 
struggled with the second issue, about your poor modeling that 
I have heard you--the talk about.
    The poor modeling is with the heavy trucks. Back in 2010 
you said there was going to be about $3,400, but we are seeing 
three times that cost, is what it is going to affect with it. 
We see the mercury and air toxic standard, that your prediction 
said that there will only be 10 gigawatts of power shut down, 
but the Department of Energy and others say it could be six or 
10 times that amount is going to be shut down. But yet you 
continue to issue more regulations, even though the model is 
saying it doesn't work with it. You have had a model that 
talked about how CO<INF>2</INF> impacts the temperatures around 
the globe. We know from the standard, that doesn't work.
    So let me just close in the time I have with this that--
there is a George Mason University report, the Mercatus Group, 
and they say regulations can affect job creation, wage growth, 
and the workforce skill mismatches can result in lower labor 
workforce participation, and higher unemployment rate in the 
long run. Madam Administrator, I am torn over the disconnect 
about how you continue to say at the EPA that it is helping the 
economy, when others are saying absolutely the opposite.
    We didn't come here to Congress to be bullied by radical 
environmentalist policies. You know, we came here, I think, to 
serve our Nation, but we want to preserve our economy, and the 
regulatory environment that we are facing here is very 
destructive. I hope you will take that into consideration.
    Mr. Whitfield. Gentleman's time has expired. At this time 
recognize the gentleman from Iowa, Mr. Loebsack, for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair. Great to see you, as 
always, Madam Administrator. I do want to take this opportunity 
to invite you back to the Iowa State Fair this summer, if you 
can make it.
    Ms. McCarthy. Terrific.
    Mr. Loebsack. It would be wonderful for you to be there. I 
know there are a lot of folks, not just in the ag sector, but 
others who would love to see you there. I have been going back 
and forth between this and another subcommittee, and so the 
RFS, I know, probably did come up already, and I hope I am not 
repeating what was already asked, and asking you to repeat what 
you have already said. But, as you know, that is a really big 
issue in my State. We have talked about this in meetings until 
both of us were blue in our face, probably, especially just 
trying to figure out, you know, what we are going to be doing 
going forward.
    As you know, EPA is required by law to set mandated levels 
for 2008 through 2022 for the different types of renewable 
fuels blended into gasoline and diesel, and we had a big issue 
over 2014. And now I am kind of--there are a lot of folks, you 
know, who are concerned about this. We are reading different 
things in the media. There was some article just yesterday, or 
the day before, and I don't know where they got their 
information, said that the 2014 levels are going to be set 
retroactively based on what actually happened in 2014, and then 
'15 and '16 are yet to be determined.
    So can you give us some clarity as to where we are with 
respect to the RFS? I know there are others up here who want to 
know about this, and who may not agree with me, necessarily. I 
am not going to point out anyone in particular, but we have our 
differences up on this panel about this as well.
    Ms. McCarthy. Well, we are doing our best to take a look at 
how we can move forward with 2015. And you are right, we also 
are looking at how we can best send a longer term market 
signal. Because the biggest problem we had with not putting out 
the rule in 2014 was that we didn't have an opportunity to send 
that research signal. And I think that investments, continued 
investments in the sector are going to be essential.
    Mr. Loebsack. All right.
    Ms. McCarthy. So we will get this rule done. We are also 
looking at what we can do in the following years. We are 
already late in proposing 2015.
    Mr. Loebsack. Right.
    Ms. McCarthy. We have to play some catch-up here, and do it 
in a way that sends a signal that we recognize the statutory 
levels that Congress has set, and we need a trajectory to move 
forward here. And I think we had problems in 2014 that we have 
all learned from, and we will not repeat those problems again.
    Mr. Loebsack. Um-hum.
    Ms. McCarthy. And we will work with you. And I know how 
important it is to your State. I sat down with Governor 
Branstad on Friday, who reminded me----
    Mr. Loebsack. All right.
    Ms. McCarthy (continuing). Again, and so----
    Mr. Loebsack. I am sure he did.
    Ms. McCarthy (continuing). We will work through these 
issues, because I know that there are challenges there that are 
difficult for all of us.
    Mr. Loebsack. Yes, and it is just--really, as you know, it 
is the uncertainty attached to all this. And we are not just 
talking about ethanol, obviously. That is the big one that----
    Ms. McCarthy. Yes.
    Mr. Loebsack (continuing). You know, folks talk about all 
the time, and it is not just that. It is biodiesel, it is 
second-generation ethanol, cellulostics. It is a lot of 
different things that we are talking about here. And it does 
get complicated, there are no question, but it is just so 
important, you know, for folks to have some kind of certainty 
down the road so they know what it is going to be, so they can 
plan, you know, for their investments. And we have got a lot of 
folks, a lot of great people in Iowa and beyond who are 
involved in this industry who are planning in spite of the 
uncertainty, and they are doing the best they can----
    Ms. McCarthy. They are.
    Mr. Loebsack (continuing). Biodiesel folks. That is a tough 
issue for them, as you might imagine too. And there we get into 
the credit, as well as the RFS. But those are just really tough 
issues, and I am just here to advocate, obviously, and push you 
as hard as I can to get this rule done, and make sure that we 
have some kind of certainty for those folks.
    Ms. McCarthy. Thank----
    Mr. Loebsack. The second issue--and thank you for your 
response. Second issue has to do with the Clean Power Plan, 
and--as you know, requires power plants to reduce emissions by 
25 percent by 2030, and Iowa has already made some great 
strides, taking advantage of alternative energy. One of my 
colleagues the other day asked me, well, Iowa, you get about 25 
percent of your electricity from wind. I said, 27.3, as a 
matter of fact. And I have a lot of wind generating industries 
in my Congressional district. And so Iowa has gone pretty far, 
in fact. I think not only are we showing others how it has to 
be done, but we have cut emissions, and I think we need to 
achieve 16 percent to meet the power plan's goal.
    The question is, is EPA willing to work with individual 
States? Are you willing to take into account, as we go forward, 
what individual States have done? And how is that going to play 
out, if that is the case?
    Ms. McCarthy. Yes. We will work with both individual 
States, in terms of the analysis we have done, on a State-by-
State basis. We have also been challenged to look at the 
framework, and whether or not we got it quite right. And we are 
looking at both of those issues, as you can--you probably know 
we received a lot of comments on this----
    Mr. Loebsack. Right.
    Ms. McCarthy (continuing). But we are going to take our 
responsibilities seriously, both to look at the individual 
State numbers and the framework itself.
    Mr. Loebsack. I mean, there are a lot of folks out there 
doing good things. Best practices, you know, there is no 
question about that. I am very proud of what we have done in 
Iowa, as you might imagine.
    Ms. McCarthy. I am amazed at the wind generation in Iowa. 
It is quite a success story.
    Mr. Loebsack. Thank you, Madam Administrator. Thank you, 
Mr. Chair, and I yield back.
    Mr. Whitfield. At this time I recognize the gentleman from 
Illinois, Mr. Kinzinger, for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman, and thank you for 
saying my last name correctly. Hey, everybody. Thank you for 
being out here. Thanks for your service. Thanks for taking the 
time with us today.
    You know, nuclear power plants throughout the country 
provide safe, zero carbon emission. The power is--amazingly 
reliable source of power, capacity factors running well into 
90th percentile worldwide. Unfortunately, we have seen over 
4,000 megawatts of nuclear generation retired, with an 
additional 10,000 megawatts nationwide being targeted. I 
understand there are a number of factors influencing this 
portion of the energy industry, but what I don't understand is 
the initial emissions rate and goal set out by your 
administration through the Clean Power Plan. For some reason, 
only six percent of the State's existing nuclear fleet is able 
to be utilized, and that leaves States with no reason to look 
towards clean nuclear generation in order to comply with your 
order.
    I know this was touched on a little earlier by my colleague 
from Illinois, but is the EPA going to review and modify the 
treatment of nuclear in the final rule?
    Ms. McCarthy. Well, we certainly have received a lot of 
comments, and we did tee up a proposal. I would characterize it 
a little differently than you may have, but it was an attempt 
to recognize that we realize nuclear base load that is 
operating today is a significant source of electricity that is 
zero carbon. We wanted to point that out to States. We have 
received a lot of comment on that. We will be taking a very 
close look at this issue.
    Mr. Kinzinger. OK.
    Ms. McCarthy. And I do know how important it is for your 
State.
    Mr. Kinzinger. OK. So do you have any idea why only six 
percent was included initially?
    Ms. McCarthy. Actually, the six percent was an attempt to 
recognize that there are a number of vulnerable base loads----
    Mr. Kinzinger. Right.
    Ms. McCarthy (continuing). That have not yet committed to 
permit renewal. That will ensure that they remain a significant 
part of the base load capacity. And that was an attempt to try 
to capture that, to indicate that we are building those into 
the standard setting process because we believe that they may 
be at risk, but they should be staying in, all things being 
equal, because we are providing an incentive for a low carbon 
future with this rule.
    People did not appreciate the way we handled it, many of 
them, so we are re-looking at it on the basis of the comments 
that came in. But it really was an attempt to recognize the 
value of nuclear in the current base load, and the danger of 
not recognizing that right now they are competitively 
challenged. But there is a need to look at that if you really 
want to make sure that we are providing an opportunity for a 
transition to a low carbon future that is----
    Mr. Kinzinger. Yes, that is right----
    Ms. McCarthy (continuing). Reliable and affordable.
    Mr. Kinzinger. And especially, you know, if you want to see 
the price of energy skyrocket, start watching some nuclear 
power plants shut down, so--I appreciate that. And then also 
just a couple of quick ones. EPA's budget documents state that 
the Clean Power Plan will be implemented throughout State 
compliance plans that are submitted to the EPA for review and 
approval, with initial submittals beginning in 2016. Does the 
EPA plan to require initial State plans in 2016?
    Ms. McCarthy. For many. We have also provided opportunities 
for longer periods of time if States are looking at doing 
things that require legislative approval, like interstate 
agreements. So we are trying to be flexible, but we certainly 
need a signal in 2016 that the States are making a commitment 
to a path moving forward, and we have tried to define what that 
would look like in the plan itself.
    Mr. Kinzinger. So under the Unfunded Mandates Reform Act, 
you are required to estimate the burden on States to develop 
that plan? Do you have an estimate of how much it will cost 
States to develop these plans? Can you supply those estimates?
    Ms. McCarthy. We actually have asked in this budget 
proposal for $25 million to support that activity to States, 
which is hopefully going to send a signal that if we want to 
get this done, we need to work together, and we also need to 
support the efforts of the States in moving this forward. But 
States are pretty familiar with this type of a planning 
process, and I am just hoping that Congress will support that 
extra 25 million. But we certainly give support to the States 
for these types of air efforts----
    Mr. Kinzinger. So the----
    Ms. McCarthy (continuing). And we are hoping to expand 
that.
    Mr. Kinzinger. So the 25 million, will that go directly to 
States----
    Ms. McCarthy. Yes, it would----
    Mr. Kinzinger (continuing). Help them with these plans?
    Ms. McCarthy (continuing). In our State grants----
    Mr. Kinzinger. And so is your estimate, then, that it is 
$25 million to develop State plans, or is that just a piece of 
what you hopefully will determine is the overall cost of----
    Ms. McCarthy. Well, we think that will provide them an 
opportunity to do this without weakening their ability to 
continue to do work in other air challenges.
    Mr. Kinzinger. OK. And if you get estimates--you may be 
highlighting some there, but if you get estimates, if you could 
just communicate that with our office, that would be great.
    Ms. McCarthy. Yes. I would also point out that the budget 
includes $10 million for us to support tools that the States 
would readily be able to use in their plan development. So we 
are doing the best we can to make sure they have both the 
flexibility and the resources to get this done.
    Mr. Kinzinger. And you will--with all the comments you are 
getting on this, you know, put that in--especially if you made 
changes, put that into updating the estimates and whatnot, I 
would----
    Ms. McCarthy. Yes.
    Mr. Kinzinger (continuing). Assume? OK.
    Ms. McCarthy. Thank you.
    Mr. Kinzinger. Mr. Chairman, thank you so much, and I yield 
back.
    Mr. Whitfield. Thank you. At this time recognize the 
gentleman from Oregon, Mr. Schrader, for 5 minutes.
    Mr. Schrader. Thank you, Mr. Chairman. Thank you for being 
here, Madam Administrator. Appreciate----
    Ms. McCarthy. Great to be here.
    Mr. Schrader (continuing). It very much.
    Ms. McCarthy. Thank you.
    Mr. Schrader. Like to talk a little bit about Superfund 
site administration and funding. As you may or may not know, 
Portland Harbor is designated a Superfund site as of 2000. It 
is a little bit unusual, in that both the business community 
people that may have contributed to some of the problems there, 
as well as others in the community have stepped up--
collaborative effort to try and deal with this.
    It has been, you know, almost 16 years now. We have gone 
through 10 different administrators. The goalposts have 
changed, depending on which administrator in our region comes 
in. The staff, there has been a tremendous turnover in staff, 
and it has been difficult to deal with these moving goalposts. 
We now have somewhat unrealistic standards regarding fish 
consumption, which seems to be the indicator species, that, you 
know, we are trying to grapple with, trying to work with the 
Agency on, but it is difficult. You know, as a scientist, 
veterinarian, I look at these things through a scientific 
prism, and want to have these standards based on good science.
    But even beyond that, it would appear that the current 
regional administration has, you know, their own mindset about 
what is going to be done regardless of what is being talked 
about by the collaborative partners in our region. And we are 
having trouble getting this decision in--I think it was middle 
of 2013 there was a promise of additional help from the folks 
here in DC to maybe move things along at an accelerated pace. 
And again in January there was a discussion with our own 
Department of Environmental quality, working with folks in DC 
to help augment Region 10's ability to get the job done.
    Ms. McCarthy. Yes.
    Mr. Schrader. So I guess, basic questions here. You know, 
the decision was supposed to be coming here in 2016. We have 
heard it is going to be put off to 2017. We have been hearing 
this for a lot of years, Madam Administrator, and the 
uncertainty creates a big problem for economic development in 
our region. If we are trying to get people back to work, for 
trying to do the right thing for the environment, the sooner we 
get this decision done, the sooner we can decide whether or not 
it is economically feasible to work along the Portland Harbor.
    I would like to think that both of them are not mutually 
exclusive, but, again, what we are hearing from Region 10 would 
seem to indicate it is mutually exclusive, going to the highest 
cost alternative, in terms of remediation, rather than some of 
the other remedial efforts that are actually out there. So 
basically, want to know, is 2017 the best case scenario, and 
can we hold, with all due respect, the Agency's feet to the 
fire, and get a record decision by----
    Ms. McCarthy. Yes.
    Mr. Schrader (continuing). 2016?
    Ms. McCarthy. I know that Portland Harbor was an issue that 
came up during my confirmation process, and the interest in 
this. And Dennis McDonough, who is our regional administrator, 
is actively involved in this issue in a way that tries to make 
sure that it is moving forward. And so I know that we are 
putting the resources to this, and we will continue with this 
discussion. I think we have turned a better corner.
    Mr. Schrader. Good.
    Ms. McCarthy. I know that we are not only looking at making 
sure that we get the cleanup correct--did I say McDonough? 
Sorry. Dennis McDonough----
    Mr. Schrader. That is----
    Ms. McCarthy (continuing). Is the Chief of Staff of the----
    Mr. Schrader (continuing). Chief of Staff----
    Ms. McCarthy (continuing). President.
    Mr. Schrader (continuing). For the President of the United 
States.
    Ms. McCarthy. He didn't take on added responsibility 
during--since my--Dennis McLerran, I apologize. We are looking 
at ways that, while we may need more time to explore the final 
cleanup, the record of decision on this, that we will have 
sites ready and moving forward regardless of when that decision 
gets made. So we will get that decision made as quickly as 
possible, but we are also getting all the preliminary steps 
ready so that we can continue to move forward, and not 
sequentially think about these issues. And I think we are 
working really hard with Oregon to make sure that that is the 
case so that we don't lose any time in this process.
    Mr. Schrader. Well, with all due respect, we have lost a 
lot----
    Ms. McCarthy. Right.
    Mr. Schrader (continuing). Of time, and I am not convinced 
the current Region 10 administrator shares your enthusiasm for 
getting this thing done in a timely manner. And the biggest 
concern I have, here you have got a collaborative partnership 
willing to step up, and yet they are getting, what I would 
perceive, beaten up on a regular basis, with unrealistic 
requirements and expectation. Here is a group that could be a 
shining example of how the process could actually work, then. 
Your continued attention I appreciate.
    Ms. McCarthy. You will have it. Thank you.
    Mr. Schrader. Another issue in my State, of course, is wood 
products.
    Ms. McCarthy. Yes.
    Mr. Schrader. We are a big--well, we would like to be a big 
wood producing State. That doesn't seem to be possible anymore. 
That is another topic for discussion. But for the wood that 
does come out, there is a wood composite industry that is 
pretty viable. I would like it to be more viable, and they have 
been waiting for the formaldehyde standards for composite----
    Ms. McCarthy. Yes.
    Mr. Schrader (continuing). Wood products. The rule was 
supposed to be done in 2013. It is now 2 years later. Again, 
economic uncertainty is the enemy of business. Most businesses 
can adapt, as long as they know what the rules of engagement 
are. Can you tell me what the status of the regulation is, when 
it is going to be finished, and is the President aware of the 
final sign-off yet?
    Ms. McCarthy. I certainly am aware of the challenge that we 
have been facing in getting this rule finalized, particularly 
as it has to do with laminates----
    Mr. Schrader. Yes.
    Ms. McCarthy (continuing). And our ability to be able to 
address what is potentially a significant source of emissions, 
but do it in a way that is viable and effective for the 
industry moving forward. We are looking very hard at how we 
resolve that issue so this rule can come out, and I do know 
that we need the certainty that you are discussing. And I will 
go back and see if we can continue to address this issue, and 
get it out across the finish line.
    Mr. Schrader. All right.
    Ms. McCarthy. It has been since 2013, but this has not been 
without its challenges. And we keep trying to develop a testing 
method that will work and be cost-effective, but it remains a 
challenge for us. But we will see if we can't get it moving.
    Mr. Schrader. Well, thank you very--I work with the 
industry. I think they are on your team, in terms of wanting to 
get this done, so----
    Ms. McCarthy. They sure are.
    Mr. Schrader (continuing). Thank you very much, and I yield 
back.
    Ms. McCarthy. Thanks.
    Mr. Whitfield. Gentleman yields back. At this time 
recognize the gentleman from Virginia, Mr. Griffith, for five--
--
    Mr. Griffith. Thank you, Mr. Chairman. Thank you, Ms. 
McCarthy, for being here today. Today is February 25, 2015, and 
earlier you told Chairman Whitfield that you were confident of 
going forward with the Clean Power Plan under 111(d). And I am 
just wondering--your document--your budget document also states 
the Clean Power Plan is President Obama's top priority for the 
EPA, and the central element of the U.S. domestic climate 
mitigation agenda. Yes or no, has there ever been a time since 
it was announced by the President in June of 2014 that the EPA 
has considered not finalizing this rule? Yes or no?
    Ms. McCarthy. No.
    Mr. Griffith. And has there ever been a time since it was 
announced by the President in June of 2014 that you, as the 
Administrator of the EPA, have considered not finalizing this 
rule?
    Ms. McCarthy. No, sir.
    Mr. Griffith. So then, in the case of Murray Energy vs. EPA 
and Regina McCarthy, when your lawyers said that the EPA may 
not adopt the proposal related to final action--propose Section 
111(d) related to the Clean Power Plan, your lawyers did not 
tell the truth, the whole truth, and nothing but the truth to 
the court, isn't that accurate, yes or no?
    Ms. McCarthy. Sir, the proposal as proposed may not be what 
we move forward with, but there has never been an indication to 
me, in comments that were----
    Mr. Griffith. OK.
    Ms. McCarthy (continuing). Received----
    Mr. Griffith. But they said they may not----
    Ms. McCarthy (continuing). That would indicate we can't do 
that.
    Mr. Griffith (continuing). That they may not move forward, 
that wouldn't be a complete statement of accuracy, since June 
2014 and today you are very confident you are moving forward? 
You are moving forward. That was the whole argument in the 
case.
    Ms. McCarthy. No, many----
    Mr. Griffith. Let me move on.
    Ms. McCarthy. Many things can happen.
    Mr. Griffith. Let me move on.
    Ms. McCarthy. You asked about my confidence level, and I 
am----
    Mr. Griffith. All right.
    Ms. McCarthy (continuing). Confident that we can get this 
done.
    Mr. Griffith. All right. Well, let me move on then, because 
it is interesting that your lawyers have taken several 
positions on this. In the case of New Jersey vs. EPA, excuse 
me, 517 F.3d 574 (2008), in regard to 111(d), the EPA 
promulgated CAMR regulations for existing electric generation 
units under Section 111(d), but, and I am quoting now from the 
opinion, ``But under EPA's own interpretation of the section, 
it cannot be used to regulate sources listed under 112. EPA 
thus concedes that if the electric generation units remain 
listed under Section 112, as we hold, then the CAMR regulations 
for existing sources must fall.'' I would submit to you that 
the same is going--there your lawyers have already conceded you 
don't have the authority to regulate under both 112 and 111(d), 
and yet you say you are confident in moving forward.
    Ms. McCarthy. I don't agree----
    Mr. Griffith. And let me read you----
    Ms. McCarthy (continuing). With that----
    Mr. Griffith (continuing). The language----
    Ms. McCarthy (continuing). Interpretation, sir.
    Mr. Griffith. And let me read you the language of the 
actual code. 111(d)(1), ``The Administrator shall prescribe 
regulations which shall establish a procedure similar to that 
provided by Sections 110, under which each State shall submit 
to the Administrator a plan which (A) establishes standards of 
performance for an existing source for any air pollutant (1) 
for which air quality criteria have not been issued, or which 
is not included on a list published under Section 108(a), 
or''--relevant section--``emitted from a source category which 
is regulated under Section 112.''
    So it would seem, from the language, from prior court cases 
where the EPA conceded the point, that there is not legal 
authority to move forward. And I know that you are not an 
attorney by training, but I would have to submit to you, as an 
attorney by training, that if you are confident of going 
forward under 111(d) and being upheld in the courts, your 
confidence is misplaced, and your lawyers are not telling you 
the truth, the whole truth, and nothing but the truth. Let me 
switch to another subject.
    Your budget requests tens of millions of dollars to 
implement the Clean Power Plan because you all have indicated 
you need some expertise. I assume, however, that you do work 
well with the Secretary of the Department of Energy. Is that--
yes or no?
    Ms. McCarthy. Yes, I do.
    Mr. Griffith. I thought you did. And so then I have to ask, 
why are we going to spend tens of millions of the taxpayers to 
give you all new employees for ``evaluating and capturing these 
compliance strategies requires the Agency to tap into technical 
and policy expertise not traditionally needed in the EPA, for 
example, nuclear, wind, solar, hydroelectric, et cetera,'' when 
the DOE already possess this expertise? Why not just work with 
them? And I would submit that that is what you ought to do, and 
that would save the taxpayers tens of millions of dollars.
    Do you agree with me that, if we can use the DOE as 
experts, instead of having the EPA open up a whole new branch, 
that that would be better for the taxpayers of the United 
States of America, yes or no? And I only have a couple seconds.
    Ms. McCarthy. I do not agree that there isn't a need for--
--
    Mr. Griffith. OK.
    Ms. McCarthy (continuing). Expertise at EPA at all.
    Mr. Griffith. All right. I think you all can share, but we 
disagree on that. And, lastly, you agree that health in the--
and--of people and unemployment are connected with each other, 
that people who are employed generally have a better health 
standard that the unemployed sometimes don't enjoy? You would 
agree with that, I would think. And I would have to say to you 
that one of the concerns I have with--you have heard about the 
wave after wave of regulation from Mr.----
    Ms. McCarthy. Um-hum.
    Mr. Griffith (continuing). McKinley, and how that is 
hurting employment. I picked up the unemployment statistics in 
some of my coal counties, and going in alphabetical order, and 
just hitting the first two, Buchanan County, at the height of 
the recession, had an 8.9 annual unemployment rate in '09, 8.9. 
In '13, at the end of '13, it is 9.8, because of regulations 
that are putting hundreds of thousands of coal miners and 
related industries, their jobs are gone. This is not even 
counting the folks who have just gone ahead and decided to 
retire, or shut down their businesses, and are no longer 
looking for employment.
    That was Buchanan County. Dickinson County, height of the 
recession, 2009 annual number, 9.0. Today--or 2013, 10.0. Our 
economy is getting worse because of policies coming from your 
Agency. And I apologize, I can't let you answer that because I 
have to yield back. Thank you, Mr. Chair.
    Mr. Whitfield. Gentleman yields back. At this time 
recognize the gentleman from Maryland, Mr. Sarbanes, for 5 
minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you, 
Administrator McCarthy, for being here. Just on the last 
exchange, I fear that the legal justification for the 
Department's regulations was impugned. I have high confidence, 
I want you to know, that there is a strong legal basis for the 
regulations and the position that you are taking. And I want to 
thank you generally. I want to thank the EPA, and I want to 
thank the Obama administration for picking up the slack on the 
issue of climate change, and addressing the ravages of climate 
change.
    Unfortunately, despite the efforts of many of us here to 
try to move forward with a statutory response to this issue, it 
hasn't happened. Congress has not done the job that it should 
do. The EPA, again, I think, with sound legal authority, has 
really taken a leadership role. And I also want to salute your 
Agency, and the administration generally, for the Climate 
Action Plan, which addresses climate change, for the Clean 
Power Plan, for these historic international agreements which 
are being undertaken, which finally gets us in a position of 
momentum, in terms of addressing the issue of climate change.
    In doing that, you are reflecting where the public is 
increasingly. There is polling that indicates 70 percent of 
Americans favor stronger limits on the amount of carbon that is 
emitted by power plants because they understand the health 
consequences of that, and they understand the impact on climate 
change. Over 80 percent of Americans think that the United 
States should take action to address climate disruption, based 
on a poll in 2013. This is becoming an emerging consensus on 
the part of public. I think they are appreciative of the 
efforts that you, and your Agency, and the administration are 
taking to address this important concern. Now, I understand the 
solutions are not simple. Carbon emission reductions have to be 
rooted in science. Aggressive goals must be set to avoid the 
harshest impacts of climate change, and reasonable, intelligent 
folks can differ on how to deliver those results. We will 
continue to have the discussion in this committee.
    But I think there is a false dichotomy that often gets put 
forward, that somehow, in addressing climate change, we are 
going to have to undermine our economy, and I don't think that 
that is a fair narrative. I think we need to look at the fact 
that investing in clean energy infrastructure can actually 
produce terrific advances for our economy, and we need to get 
on the cutting edge of that, because our peer nations around 
the world are beginning to make those investments. We can be in 
the position of being the leader, which will actually help our 
economy, but not if we are asleep at the switch. So when we 
say, why are we doing these things? There are a lot of good 
answers. To protect the planet, to protect our health, public 
health, to protect our national security, and to protect our 
economy, by getting on the front end of these emerging 
technologies.
    Can you speak to what the Clean Power Act plan, the Clean 
Power Plan that you have put forward, and the Agency has put 
forward, what you see in terms of the potential positive 
economic impact and job creation effect that that can have? 
Because it is an important part of the dialogue.
    Ms. McCarthy. Thank you for raising that. I know that we 
feel very strongly that the way in which we have proposed this 
rule, to provide flexibility to use energy efficiency and 
renewable energy as part of not just our standard setting 
process, but our compliance process, allows tremendous 
flexibilities for States to take a look at where their energy 
universe is heading. Where is the market? What is the 
transition we are seeing towards a clean energy future, 
regardless of this Clean Power Plan, and how can we follow 
that? How can we allow every State to identify what is best for 
them in terms of job growth opportunities, ways to invest in 
their economy and grow jobs?
    And we believe that, because of the flexibility we 
provided, and because we know that the economy, and the energy 
system, is transitioning towards a low carbon strategy, 
businesses are transitioning already. Government has to follow, 
and recognize there are ways of addressing our climate 
challenge that can actually bring great economic benefit to 
this country, and provide the spark and innovation that we need 
to retain international leadership. We see this as being a path 
to the future, instead of continued investment in very old 
technologies that are not producing more jobs, that are not 
being invested in. The investment is in clean technologies.
    Mr. Sarbanes. Thank you very much. Thanks for your 
outstanding testimony, and your work.
    Ms. McCarthy. Thank you.
    Mr. Sarbanes. I yield back.
    Mr. Whitfield. At this time recognize the gentleman from 
Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and Administrator 
McCarthy. Thank you for being here today. I represent much of 
Appalachia, Ohio. That is home to several coal mines, and coal 
fired power plants, and home to the hard working, tax paying 
men and women who work in those facilities to provide for their 
families. These proud men and women produce the energy 
resources that are keeping the lights on and heating the homes 
of the majority of Ohio homes during this very cold winter.
    So can you tell us why energy rich Ohio was excluded from 
the public hearings on EPA's climate rules?
    Ms. McCarthy. Well, as far as I know, sir, those hearings 
were strategically placed around the country to ensure that 
people could have access to attend those. They were very 
heavily----
    Mr. Johnson. Yes, it is interesting that they were 
strategically placed in places where coal mining and coal 
operations don't exist.
    Ms. McCarthy. That is not correct, sir.
    Mr. Johnson. I have the list----
    Ms. McCarthy. Pittsburgh----
    Mr. Johnson. I have the list----
    Ms. McCarthy (continuing). Pennsylvania's fifth----
    Mr. Johnson. How many coal mines are in Pittsburgh? I can 
tell you how many coal mines are in eastern and southeastern 
Ohio, and there are a number of them. But, you know, we can fix 
this.
    Ms. McCarthy. No, all I----
    Mr. Johnson. I heard my colleague from Iowa say that he 
invites you back to the Iowa State Fair. I would like to invite 
you to come to Ohio----
    Ms. McCarthy. Well----
    Mr. Johnson (continuing). Sit down and talk directly to the 
Ohioans who work in those coal mines, and in those power 
plants, who are likely to lose their jobs as a result of EPA's 
actions, your actions, Administrator McCarthy. You know, they 
pay your salary, they pay my salary. So let me ask you, will 
you meet with them? I will arrange my schedule so that I can be 
there to be there with you, and we can have a dialogue with the 
people whose lives are being affected by the regulations coming 
out of your Agency.
    Ms. McCarthy. We have been reaching out all across the 
country----
    Mr. Johnson. No, I am asking you, will you come with me? 
Because I will help set it up.
    Ms. McCarthy. Every State is asking me to go to their 
State.
    Mr. Johnson. I am asking you today. That is a simple 
question.
    Ms. McCarthy. I really----
    Mr. Johnson. Yes or no? Can I get with your----
    Ms. McCarthy. I will not make----
    Mr. Johnson (continuing). Team?
    Ms. McCarthy (continuing). A commitment to go to your State 
on specific----
    Mr. Johnson. OK. I am going to have my team----
    Ms. McCarthy (continuing). Unless you believe----
    Mr. Johnson (continuing). Reach out to your office to try 
to set up that meeting, then, because I am going to take that 
as a yes. Is that what you just said? That you are willing to 
meet?
    Ms. McCarthy. No, I am always willing to talk to you, sir, 
but----
    Mr. Johnson. No, I am asking you will you come to Ohio and 
meet with the men and women----
    Ms. McCarthy (continuing). From----
    Mr. Johnson (continuing). Reclaiming my time, Administrator 
McCarthy, it is a simple question. Will you arrange your 
schedule to come and meet with the people that are being 
affected in Ohio by the actions of your administration?
    Ms. McCarthy. I am happy to continue to talk to you, sir. 
If there is a stakeholder that we have excluded from the 
process, I will----
    Mr. Johnson. Will you come?
    Ms. McCarthy (continuing). In.
    Mr. Johnson. You are not going to answer the question, so I 
will--on.
    Ms. McCarthy. OK.
    Mr. Johnson. It is clear why you left those folks out, but 
I will set up the meeting, and we will reach out to your team, 
and see if we can work that out.
    You know, nuclear power is our only high capacity base load 
generation source that emits no carbon dioxide. We have talked 
about that a little bit, but we are in danger of losing some 
units in our existing fleet for multiple of reasons. If any of 
them close, overall carbon dioxide emissions increase. That is 
a fact, because even if intermittent renewable energy, wind and 
solar, were to displace the power, it must be backed up by 
natural gas generation. So, therefore, I am concerned about how 
the rules treats our existing nuclear fleet. For example, 
plants that choose to go through the rigorous re-licensing 
process will not be considered the same as new nuclear units 
for compliance, and it seems to me that they should be.
    So here are my questions. Do you believe that the NRC will 
approve each and every nuclear re-licensing application it 
receives throughout the compliance period, and do you believe 
that every, or even most, operators will want to make the 
significant investment to pursue re-licensing? And before you 
answer that question, your new rule basically assumes a yes 
answer to both of those.
    Ms. McCarthy. I do not know the success of the NRC process, 
in terms of re-licensing. I do know that we attempted to 
address nuclear energy, and point out its value in current base 
load, and its value in a low carbon strategy in this 
rulemaking, and we received a lot of comments on----
    Mr. Johnson. But you have assumed that every nuclear re-
licensing application is going to be approved, and you have 
assumed that those nuclear facilities are going to actually go 
through that rigorous process, and investment to get there. And 
I am going to tell you, I think that is a flaw in your 
rulemaking. And it is something that you folks ought to look 
very, very closely at. And I apologize, Mr. Chairman, but I 
have exhausted my time as well, and I yield back.
    Mr. Whitfield. Gentleman yields back. At this time 
recognize the gentleman from Indiana, Dr. Buchson, for 5 
minutes.
    Mr. Buchson. Thank you, Mr. Chairman. Excuse me. Thank you 
for being here, we appreciate it.
    Ms. McCarthy. Thank you.
    Mr. Buchson. Climate is changing. It has always been 
changing, for centuries. We know that. I think reasonable 
people can continue to have a debate about the human impact on 
that. That said, I think we all can agree that we should always 
be working towards improving our emissions as we generate 
power. But my position is that we should be doing this through 
innovation and technology development, and not through 
overreaching Federal regulation.
    Would you agree that, in general, a rule that is proposed, 
on any subject, really, should be based on the availability of 
the technology to comply with the rule? Or, if the technology 
isn't available, would you agree that maybe that rule needs to 
be revisited?
    Ms. McCarthy. Well, we certainly know that, when we rely on 
a technology as part of our standard setting process, that we 
have to do our due diligence on that technology.
    Mr. Buchson. Well, that said, and I am not going to repeat 
what one of my colleagues talked about on carbon capture, the 
administration has taken a position that no new coal plants 
should be built in the United States unless they are equipped 
with CCS technologies, which were earlier pointed out, but 
right now there is nothing that has been demonstrable to be 
successful to accomplish that. And the one that you are quoting 
is not in the United States, and actually may very well not be 
financially successful.
    But right now you are aware that Germany is building new 
coal plants without CCS, as is other countries in Europe, and 
in Japan? Does the EPA object to that?
    Ms. McCarthy. Well, the EPA certainly is looking to be 
able, not just EPA but across the administration, to provide 
opportunities for continued advancement of the technology, and 
to ensure that coal gets cleaner over time so it is part of a 
clean energy future.
    Mr. Buchson. And because these countries are building 
state-of-the-art new power plants without CCS, shouldn't we 
allow them to be built in the United States?
    Ms. McCarthy. They have different energy strategies, sir. I 
know they are heavily investing in a variety of things, so I am 
not----
    Mr. Buchson. Actually, they are investing in coal, and 
getting out of other energy sources because the other energy 
sources, they can't afford them anymore. They are so subsidized 
by the Government, the citizens can't afford to pay for the 
power, so they are going back to lower cost energy. That is the 
truth.
    I want to switch gears, though. I want to talk about 
another subject. I was a medical doctor before I was in 
Congress, and--about medical incinerators. And this has to do 
not with just Ebola, but other things, and----
    Ms. McCarthy. Um-hum.
    Mr. Buchson (continuing). One of the methods recommended by 
the CDC for treating infectious medical waste, such as Ebola, 
is--and over the past 2 decades, really, the EPA has regulated 
hundreds of medical waste incinerators out of existence, 
thereby limiting options for hospitals to properly dispose of 
extremely dangerous material.
    So my question is what are our options? I mean, the EPA has 
limited the option. In the name of public health, what 
technologies are available for hospitals and first responders 
to deal with the threat of medical waste? Ebola waste, for 
example, but others? And what resources has the EPA dedicated 
to determine such technologies comply with its standards before 
we have other problems, potentially other outbreaks?
    Ms. McCarthy. Sir, I think EPA standards have ensured that 
our medical waste facilities can actually properly manage 
waste. I think, if you have been in the industry a long time, 
you will know that there are a lot of facilities out there that 
weren't properly managing normal medical waste, never mind the 
challenge of Ebola contaminated----
    Mr. Buchson. Fair enough.
    Ms. McCarthy (continuing). Waste. And we are working very 
closely across the administration, and with the CDC and others, 
to ensure that there is a pathway forward to handle Ebola 
waste. And waste incinerators today are capable of handling 
that waste very effectively.
    Mr. Buchson. And, you know, how many are there in the U.S., 
you know, that can handle that? Do you have any ballpark idea?
    Ms. McCarthy. I don't----
    Mr. Buchson. I don't off the top of my head, either.
    Ms. McCarthy. I certainly will follow up, if you----
    Mr. Buchson. Well, this is something, I think, that, you 
know, from the medical community standpoint, when you, you 
know, that is an issue, and it sounds like the EPA's, you know, 
takes that seriously, and wants to----
    Ms. McCarthy. And we have brought them----
    Mr. Buchson (continuing). Make sure that we----
    Ms. McCarthy (continuing). All together to talk about 
this----
    Mr. Buchson (continuing). Can deal with it.
    Ms. McCarthy (continuing). Issue during the crisis, and we 
will continue to work with----
    Mr. Buchson. Yes.
    Ms. McCarthy (continuing). Them on it.
    Mr. Buchson. And I would argue that, you know, potentially, 
with the threat of ISIS and other organizations that, you know, 
dealing with this potential type of outbreak is a national 
security issue, and we shouldn't just deal with it on the front 
end, but on the back end, you know, if we have to start dealing 
with that. And so I would implore you to look into that.
    Ms. McCarthy. We will do that.
    Mr. Buchson. So, again, you stated earlier, but I want you 
to say again, does the EPA plan to revise its proposed rule for 
new coal fired power plants to eliminate the CCS mandate, based 
on the discussion we had previously about what other countries 
are doing, and about the fact that there doesn't appear to be 
technology available currently to comply with that mandate?
    Ms. McCarthy. There has been no final decision made, sir. 
We will look really closely at the comments that have come in. 
I understand that many have come in on this very issue, and we 
will look closely at them.
    Mr. Buchson. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Whitfield. Gentleman yields back. At this time 
recognize the gentleman from Oklahoma, Mr. Mullin, for 5 
minutes.
    Mr. Mullin. Thank you, Mr. Chairman. Ma'am, can you just 
quickly sum up what the EPA's mission statement is for me?
    Ms. McCarthy. Yes. It is to protect public health and the 
environment.
    Mr. Mullin. But not to raise revenue, or to write fines, or 
anything like that? It is just to----
    Ms. McCarthy. Not to raise revenue?
    Mr. Mullin (continuing). Protect the public health, right?
    Ms. McCarthy. Yes.
    Mr. Mullin. OK. Can you tell me the total amount of fines 
that the EPA assessed--now, this is off your Web site, I got 
this directly from you guys--in FY '14?
    Ms. McCarthy. I do not have that----
    Mr. Mullin. Let me go through this. Administrative penalty 
assessed, this is according to your Web site. Fiscal year 2014, 
$44 million. Judicial penalties assessed, $56 million. State 
and local judicial penalties assessed from joint Federal, 
State, local enforcement actions, $7 million. Supplemented 
penalties, $11 million. Fiscal year 2012, according to your Web 
site, administrative penalties assessed, 52,022,612. Judicial 
penalties assessed, $155,539,269. State and local judicial 
penalties assessed, $49,000,231. Supplemented penalties, 
$4,658,000.
    I say all that because it seems like, to me, every time we 
are cutting--now, I may make an assumption here, so stay with 
me. Your total budget for fiscal year 2014 was $8.2 billion. Is 
that not enough to operate the EPA with?
    Ms. McCarthy. Sir, it might help to know that those funds 
actually go to the Treasury, not to EPA.
    Mr. Mullin. Well, then, if that is the case, they why was 
Webco Industry fined $387,369 for not filing a TRA report----
    Ms. McCarthy. A TRA----
    Mr. Mullin (continuing). Which is a one-page paper? Now, 
they had never been in problems, or had any issues with the 
Administrator. They have had this facility for many, many 
years, but they failed to file it one time. Yet on their other 
facilities, they had filed it, but this one was an oversight, 
and you guys came in and fined them $387,000, which is 
astounding to me for a piece of paper, but yet you said if they 
paid it in 10 days, you would knock it down to $193,679. And 
when they asked if that could be paid--if they--that money 
could be used for an environmental project, which is 
historically what you guys allow to do when it is a reporting 
issue, they were told by your agent, the EPA's agent, no, you 
all needed the funding.
    Ms. McCarthy. I don't know how that could be accurate, sir, 
when we don't get the funding.
    Mr. Mullin. But there is an exception to that rule. If you 
look at the bill that you are referring to, that the money is 
supposed to be going to the Treasury, there is exceptions to 
that. Do you know what those exceptions are? If you look at it, 
if you look at the statute that you are talking to, there are 
areas in there that allows that money, depending on how it is 
written, or what it is assessed for, for you guys to keep. So 
can you tell me that all this money was surrendered back to the 
Treasury?
    Ms. McCarthy. That is my understanding, and I know of no--
--
    Mr. Mullin. Do you know that for a fact?
    Ms. McCarthy. I----
    Mr. Mullin. Because we are going through it too, ma'am. And 
I say this because we are going through this process of trying 
to determine how these fines are even being assessed, how you 
come up with the dollars that you are fining individuals. All 
this money that I had stated was coming right out of the back 
pockets of business owners, coming straight out of the economy, 
going where?
    Ms. McCarthy. It is going----
    Mr. Mullin. And what did it do----
    Ms. McCarthy (continuing). Treasury, sir.
    Mr. Mullin (continuing). When we are talking about----
    Ms. McCarthy. The only thing----
    Mr. Mullin (continuing). Protecting the health--ma'am, hold 
on. What are we doing when we are talking about protecting the 
health of individuals? How does a $387,000 fine protect the 
health of somebody when it was a piece of paper? There was 
nothing else.
    Ms. McCarthy. We are talking about enforcement that allows 
us to level the playing field for businesses that are doing 
what they are supposed to do, not----
    Mr. Mullin. Level the playing field?
    Ms. McCarthy (continuing). And that--actually make sure 
that we are providing the health benefits that our rules are 
anticipating.
    Mr. Mullin. How is this leveling the playing field? Who is 
it leveling it for, other than punishing a company?
    Ms. McCarthy. The only thing I can think of, sir, to go 
back to your original question about the law, is that there may 
be an exception that you are citing that is for Superfund money 
from responsible parties that EPA gets to collect, and then 
disperse to pay for the cleanup. That is the only instance in 
which I know of that a fine would ever directly benefit our----
    Mr. Mullin. And why would you guys give them----
    Ms. McCarthy (continuing). Other than----
    Mr. Mullin (continuing). 10 days and drop it by $200,000 if 
they paid it in 10 days?
    Ms. McCarthy. You know, this is----
    Mr. Mullin. And that--and, ma'am, this has happened to me 
personally too----
    Ms. McCarthy. Sir, I am----
    Mr. Mullin (continuing). In my company.
    Ms. McCarthy (continuing). Happy to sit down and--so you 
have a company that has been fined?
    Mr. Mullin. Yes. Yes, we have.
    Ms. McCarthy. Well, then I am happy to sit down with you in 
your current position, or as the person who runs that company, 
to walk through that issue.
    Mr. Mullin. No, what we are going at is trying to figure 
out why we can't even get a sane--and even understanding why 
the fines are being assessed the way they are, and yet you guys 
are willing to immediately knock it down by $200,000. Now, our 
fine wasn't nowhere near this----
    Ms. McCarthy. Sir, I will not apologize for this Agency 
strongly enforcing the rules that the American public----
    Mr. Mullin. No, you are making your own rules up as you go.
    Ms. McCarthy. No, sir.
    Mr. Whitfield. Gentleman's time has expired. At this time I 
would recognize the gentleman from North Dakota, Mr. Cramer, 
for 5 minutes.
    Mr. Cramer. Thank you, Mr. Chairman, and thank you, Madam 
Administrator. Nice to see you again. It is always nice----
    Ms. McCarthy. You too.
    Mr. Cramer (continuing). To see you.
    Ms. McCarthy. You too.
    Mr. Cramer. I am having a hard time knowing where to begin, 
because I have so many issues, but I think I will start with 
the Waters of the U.S. rule----
    Ms. McCarthy. OK.
    Mr. Cramer (continuing). Because I think it is especially 
relevant to the budgets, considering the appropriations.
    Ms. McCarthy. Sure.
    Mr. Cramer. We have provided some guidance, I think, in the 
most recent one. Do you regret not utilizing a small business 
advocacy review panel? And realizing you share this with the 
Corps of Engineers, but----
    Ms. McCarthy. Yes.
    Mr. Cramer (continuing). Was that a mistake, to not do a 
RFA?
    Ms. McCarthy. No, I don't think so, because we actually 
have done a tremendous amount of outreach to small businesses 
looking at this rule, and I think we have the comments we need 
to have a successful final rule.
    Mr. Cramer. But the law requires an RFA, does it not? Which 
you did not----
    Ms. McCarthy. Say that again?
    Mr. Cramer. But the law requires you to have done an RFA, 
which you----
    Ms. McCarthy. Actually----
    Mr. Cramer (continuing). Did not do.
    Ms. McCarthy (continuing). We went through the process of 
looking at whether or not we needed to stand up what we call a 
SBREFA panel. We consulted with OMB. That is the final 
decision-maker on this, and they both agreed that we had done 
the necessary outreach.
    Mr. Cramer. So have you responded, then, to the SBA's 
Office of Advocacy when they, of course, disagreed with your 
certification that it had an insignificant enough impact on 
small entities----
    Ms. McCarthy. I have not directly spoken to them, but 
certainly we have had interagency discussions on this. It is 
important to remember that the Clean Water Rule is a 
jurisdictional rule. It doesn't result in automatic permit 
decisions. It says that there are certain waters that need to 
be protected for drinking water, and that the permit decisions 
themselves are what actually will be the result of the impact 
and the further discussion.
    Mr. Cramer. But I think that the rule, as I understand it, 
presumes to narrow the jurisdiction, but the SBA Office of 
Advocacy concludes that it does, in fact, broaden it. In fact, 
the economic analysis doesn't sync with, I guess, your 
analysis, or the EPA and the Corps' analysis.
    And I have to admit, when it gets to the issue of the lack 
of clarity, which the courts have stated, in the definition of 
what navigable waters is, I understand that that should be 
clarified, but it seems to me, as I look at the seven 
categories in the rule, the definition gets cloudier, not more 
specific, in my view. And, in fact, you know, if we end 
somewhere after, like, three out of the seven, that would be 
clear too, wouldn't it? Wouldn't it be just as clear to say 
navigable waters are waters that are navigable for interstate 
commerce, and leave it at that? Why wouldn't that be clear?
    Ms. McCarthy. Yes. Actually, the area that lacks clarity 
right now is not the issue of navigable waters. The Supreme 
Court actually spoke very definitively that navigable waters 
need to be looked at in a way that isn't the traditional 
definition. We haven't been looking at navigable waters the 
same way. It is a recognition that navigable waters, and their 
ability to provide the functions that we look for, are really 
severely impacted by the waters that flow into them.
    So the challenge we tried to face in the Clean Water Rule 
was to take a look at how do we identify those rivers, streams, 
tributaries, wetlands that feed into those navigable waters 
that we need to understand and protect so that they won't 
degrade those waters that are so----
    Mr. Cramer. Well, you have just used some new terms, new, 
at least, in this rule that----
    Ms. McCarthy. Yes.
    Mr. Cramer (continuing). Weren't part of the previous one, 
and I would add neighboring----
    Ms. McCarthy. That is correct.
    Mr. Cramer (continuing). Flood plain----
    Ms. McCarthy. Yes.
    Mr. Cramer (continuing). In addition to--that is adding, 
not restricting, jurisdiction, in my view. It looks to me like 
you are reaching for more power, as opposed to further 
defining. And I just----
    Ms. McCarthy. Yes.
    Mr. Cramer (continuing). Am concerned that that is not the 
role of the EPA but, rather, the role of Congress.
    Ms. McCarthy. I appreciate your asking that. I think we are 
actually looking at that as a way to be clearer, and to narrow 
this, because there is so much uncertainty that there are more 
case by case decisions being made than need to be made.
    Mr. Cramer. Um-hum.
    Ms. McCarthy. So we are trying to provide more clarity, but 
we also know there are a lot of questions, in terms of how 
people are reading the rule, whether we were clear in our 
intent----
    Mr. Cramer. Sure.
    Ms. McCarthy (continuing). And clear in the language. And 
we will work through those issues moving forward so the final 
rule addresses some of those uncertainties.
    Mr. Cramer. Well, given the little time I have left, I am 
just going to make a couple of comments. One about--I hope that 
the FERC technical conferences are going well, and that you are 
paying close attention those as----
    Ms. McCarthy. Yes, we are. Actually, Janet McCabe, my 
Assistant Administrator in the air program, has attended those, 
and we think they are excellent opportunities for us to 
understand what the energy world is----
    Mr. Cramer. I think that type of consultation earlier in 
the process would have been better, but I am glad to see it is 
happening now.
    With regard to Mr. Sarbanes' comments about the EPA being 
more in synch with the growing population, if you will, or 
something to that effect, I would just want to state that the 
absence of Congress acting on, say, cap and trade, or choosing 
to not pass cap and trade, should not be viewed as neutrality 
by the people's House, or by the people's representatives, and 
somehow a license, therefore, to go ahead and catch up to the 
public, if you will.
    Because if public support is increasing for, whether it is 
the Climate Action Plan, or Clean Power Rule, I would also 
submit to you that the public is well ahead of the EPA, and 
more in line with the Congress with regard to, for example, the 
Keystone XL pipeline, which, so far, the only Agency that has 
even said anything remotely negative has been the EPA, and, by 
the way, it wasn't all that negative----
    Ms. McCarthy. Thank you.
    Mr. Cramer (continuing). Referring to the--that we have to 
now consider the lower price of oil. But I would just want to 
remind people that the price of oil was roughly what it is 
today when TransCanada applied for the Keystone XL pipeline. 
And I am over time. Thank you again.
    Ms. McCarthy. Thank you.
    Mr. Whitfield. Thank you.
    Ms. McCarthy. Thank you.
    Mr. Whitfield. At this time recognize the gentleman from 
Mississippi, Mr. Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman, and thank you, Ms. 
McCarthy, for being here. And I think we are near the end, so 
that is a good thing, so----
    Ms. McCarthy. That is a thank you too.
    Mr. Harper. Yes. If I could talk to you specifically, you 
know, we have a number of industries, a number of groups in my 
home State of Mississippi that, you know, are greatly impacted 
by rules that are promulgated and enforced. And one that I 
would like to just touch on for a minute would be our wood and 
pellet heating unit manufacturers, and their problems with the 
new source performance standards for wood heaters that the EPA 
just finalized. You know, it is something that really impacts 
us. These are usually small businesses that don't have a lot of 
room in their budgets for R and D costs, in addition to testing 
lab fees, and those things.
    You know, I think with the first stage of this rule that 
most companies are going to be OK. They can probably get there, 
but the second stage, which I believe is scheduled to be 
implemented in 2020, that is going to be extremely costly. It 
sets very low emissions targets that I think are going to be 
almost impossible to achieve with the current technology that 
we have, and the resources. So my question is what budgetary 
support does the Agency plan to provide to manufacturers as 
part of your goal to deal with the air quality issues that 
brought forth this?
    Ms. McCarthy. Well, Congressman, I want to first say that I 
believe your businesses were engaged in this, but we worked 
really hard with the small business constituencies on this, and 
the Small Business Administrator's Office for Advocacy. And we 
did make substantial changes in the final rule that actually 
sought to accommodate their interests, and making sure that 
there was fewer impacts, in terms of existing stoves that are 
generated and out there for sale, so that they could have 
additional time to get those sales out----
    Mr. Harper. Um-hum.
    Ms. McCarthy (continuing). But also to extend the timeline 
for compliance on these phases. So I apologize, I don't know 
the specific----
    Mr. Harper. Sure.
    Ms. McCarthy (continuing). Dates, so I can't confirm, but 
we did make a lot of changes. And I would be interested in 
hearing from you and working with you to see if they actually 
addressed the issues of concern.
    Mr. Harper. Well, we will make sure that we communicate 
further on that, because I believe it is something that would 
necessitate some additional discussion and movement and 
fairness. But what do I go back and tell those companies that 
are now looking at a large--either lab testing fees, or R and D 
costs that they don't really have in their budget to be 
profitable? What do I go back and tell them?
    Ms. McCarthy. Well, yes, I think we did a good job trying 
to make sure that the testing components of these were moderate 
enough that they didn't impose a significant cost to the 
manufacturers. But the other thing to recognize, and this is 
something maybe we can work on together, is in the past EPA and 
States and regions have had funds that actually support the 
distribution of these cleaner stoves. And I know that there are 
States that will be looking at these stoves as being 
opportunities for them to meet some of the air quality 
standards that they are facing, particularly in the particulate 
matter. If I can provide any opportunity for that dialogue to 
happen on how we could work together, it would be a pleasure 
for me to do that.
    Mr. Harper. OK. All right. Thank you for that offer, and I 
believe we will follow up on that----
    Ms. McCarthy. OK. That would be great.
    Mr. Harper (continuing). With you. If I could take just--I 
believe the clock hit. I thought I had a little bit of time 
left. Maybe a minute and a half?
    Mr. Whitfield. Go ahead.
    Mr. Harper. We are--feel like the shot clock ran out, so--
but what I would like to do to follow up is--on the issue of 
how much implementing the proposed Clean Power Plan will cost 
taxpayers. And this is--again, is specific to my home State of 
Mississippi. And I checked with our Mississippi Development 
Authority, and they indicated that the minimum incremental 
capital cost to Mississippi to comply with the proposed rule 
will be $14.2 billion----
    Ms. McCarthy. Wow.
    Mr. Harper (continuing). Which will primarily consist of 
constructing generating facilities not likely to be built, 
unless compelled by Federal mandate, and the rule will almost 
certainly cause the premature closure of existing coal plants 
in Mississippi, which would, of course, place upward pressure 
on electricity prices. If the cost to Mississippi to implement 
the Clean Power Plan would be $14.2 billion, would you agree 
that this is too much to ask of Mississippi consumers? Would 
the EPA revise the State's targets?
    Ms. McCarthy. Well, we certainly--our economic analysis 
certainly didn't indicate that that was an amount that would be 
necessary for Mississippi to spend. In fact, I think it may 
even be lower than what we estimated at our lower range for the 
entire United States. So we should be sitting down and talking 
through what the options are that we think provided tremendous 
flexibility for every State to design a very cost effective 
strategy.
    Mr. Harper. Do you have a figure for Mississippi?
    Ms. McCarthy. I do not. I do not believe we broke it down 
by individual State, but we certainly could have those 
conversations with the State----
    Mr. Harper. OK.
    Ms. McCarthy (continuing). About what their underpinnings 
were that came up with that number. Because clearly it seems 
like it is order of magnitudes larger than one would expect.
    Mr. Harper. Thank you, and I think my time expired twice. 
Thank you.
    Mr. Whitfield. At this time we welcome back Mr. Scalise, 
our Majority Whip, and recognize him for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman, I appreciate. And, 
Administrator McCarthy, it is great to see you back here.
    Ms. McCarthy. You too.
    Mr. Scalise. Thanks for coming to----
    Ms. McCarthy. You too.
    Mr. Scalise (continuing). Testify about your budget. And, 
of course, this is part of our oversight role, to go through 
and, obviously, look at some of the proposals that are going to 
be----
    Ms. McCarthy. Yes.
    Mr. Scalise (continuing). Made by the Department throughout 
the year. I want to talk to you about some of the proposals 
that not only are being proposed, and some of the impacts that 
we are seeing, and how they might have some devastating impacts 
in our local economies, but also ask about some of the others 
in the past. Because, as you make proposals, you also attach to 
them what types of impacts it might have in certain ways. And I 
want to take, for example, the Mercury and Air Toxics Rule.
    Some other Federal agencies, like FERC, when they were 
looking at this, said that plant closures would be much higher 
than the EPA estimates were going to be. It seemed to me, when 
EPA got this information, you all kind of scoffed at it. But, 
in retrospect, now that we can look back and see, the 
administration's own data concedes that the MATS rule will 
actually shutter 10 times more the amount of electricity 
generation than you all originally anticipated. How do you 
respond to something like that, when even other agencies within 
the Obama administration were saying what you were proposing 
was going to be devastating to electricity----
    Ms. McCarthy. Well, we----
    Mr. Scalise (continuing). Generation, and even more than 
what you all were anticipating, and it turned out you were way 
off? I mean, 10 times off on your estimates.
    Ms. McCarthy. Actually, sir, I am not necessarily agreeing 
that the mercury and air toxic standard was the precipitator 
for all of the closures that we are seeing----
    Mr. Scalise. But FERC made that warning too. I mean, are 
you disputing what FERC----
    Ms. McCarthy. There were----
    Mr. Scalise (continuing). Claimed?
    Ms. McCarthy. No. There were concerns raised about 
closures. There were concerns raised about reliability and 
cost, which is why we worked with DOE and FERC to address those 
issues together. And, frankly, none of those concerns have 
proven to be a reality.
    Mr. Scalise. So you are----
    Ms. McCarthy. April----
    Mr. Scalise (continuing). Disputing that they----
    Ms. McCarthy. April is when----
    Mr. Scalise (continuing). Had those shutterings of 
electricity generation, the 10 times increase in the shuttering 
of electricity generation that has occurred since the MATS 
rule?
    Ms. McCarthy. No, I did not----
    Mr. Scalise. Are you disputing that?
    Ms. McCarthy (continuing). Say that. I said that there were 
a number of closures. Whether they were attributable to the 
MATS rule, or the simple fact that the energy world is 
transitioning, is the question that I am----
    Mr. Scalise. People need more electricity, and then you 
come out with a rule that other agencies said were going to 
have devastating impacts, much worse than you anticipated, and 
those things happen, and then you say, well, yes, it happened, 
but maybe it wasn't our fault.
    Ms. McCarthy. We factored those issues in when----
    Mr. Scalise. Why would they shutter----
    Ms. McCarthy (continuing). We did our modeling.
    Mr. Scalise (continuing). Those plants?
    Ms. McCarthy. The shuttering of those plants was a market 
decision that the market made----
    Mr. Scalise. A market decision based on unachievable 
standards that are coming out of the----
    Ms. McCarthy. No, actually----
    Mr. Scalise. We are seeing this time and time again.
    Ms. McCarthy. The compliance timeline is this April, and we 
have not received any request, legitimate request, to extend 
that timeline beyond what is already affordable and factored 
in.
    Mr. Scalise. Well, then maybe you are not factoring enough 
things, because you factored in that the MATS rule would only 
have a minor impact on electricity bills, and yet Midwest 
future electricity capacity prices have already skyrocketed 
over 340 percent, largely due to MATS. So that--you said it is 
not going to have an increase in rates, and they have had a 340 
percent increase in rates in the Midwest. You need to go back 
and look at some of the stuff, because--I know the President 
loves talking about global warming, and, you know, they are 
canceling flights all across the country due to snow blizzards, 
and people are trying to heat their homes, and these rules are 
having dramatic impacts.
    I want you to answer some questions about a study that just 
came out by the Beacon Hill Institute at Suffolk University in 
Boston. I am not sure if you are familiar----
    Ms. McCarthy. I am.
    Mr. Scalise (continuing). With the study that just came 
out.
    Ms. McCarthy. No, I am not----
    Mr. Scalise. You--definitely with----
    Ms. McCarthy (continuing). Familiar with----
    Mr. Scalise (continuing). Suffolk University.
    Ms. McCarthy. Yes.
    Mr. Scalise. They just came out with an economic impact 
study on the effects of the new EPA rules on the United States. 
I would ask unanimous consent if we can submit this report into 
the----
    Mr. Whitfield. Without objection. \1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at  http://docs.house.gov/meetings/IF/IF03/20150225/
103014/HHRG-114-IF03-20150225-SD008.pdf.
---------------------------------------------------------------------------
    Mr. Scalise. In this report, they go through and they break 
down not only national impacts, which are devastating, but they 
go State by State. So in my State of Louisiana, the Pelican 
Institute for Public Policy, which looks at a lot of this 
information, and looks at economic data, they went and broke 
this down, and looked at the report, and, according to what 
they have seen, you would have an impact, in my State of 
Louisiana alone, of an increase in utility rates by 22 percent. 
Electricity prices would go up 22 percent by 2030. The State of 
Louisiana alone would lose over 16,000 jobs, based on these 
rules.
    And you just have to ask--I will read a quote from Kevin 
Kane, who is the President of the Pelican Institute, ``Along 
with these significant costs, it is worth noting that the 
increases in electricity prices would disproportionately affect 
lower income Louisianans, who spend approximately 70 
percent''--7-0--``70 percent of their after-tax income on 
energy. These costs need to be taken into consideration by 
State and Federal policymakers.'' Are you all taking into 
consideration devastating impacts like this on rules that you 
are proposing, where you would increase people's electricity 
rates? Lower income people that would be harmed heavily by 
this, by 22 percent, and over 16,000 jobs lost in one State 
alone. And, of course, this is national in the impact this 
would have.
    Ms. McCarthy. I don't know what study you are talking 
about, what rules they are looking at----
    Mr. Scalise. I will--yes, this is----
    Ms. McCarthy (continuing). But I do know that----
    Mr. Scalise. This is the Suffolk University study that 
looks at the impact of----
    Ms. McCarthy. I am happy to take----
    Mr. Scalise (continuing). The new EPA rules.
    Ms. McCarthy. I am happy to take a look at it, but I know 
that Congress has actually charged us to do exactly that, to 
take a look at the costs and benefits, and all the economic----
    Mr. Scalise. So I would urge you to look at this study----
    Ms. McCarthy. And when we have done that----
    Mr. Scalise (continuing). And taking them, and if you would 
have heard----
    Ms. McCarthy. When we have done that, we have not seen the 
damage that you are indicating. We have seen that we are 
actually----
    Mr. Scalise. Well, we have seen that. I just--340----
    Ms. McCarthy (continuing). Part and parcel of a growing----
    Mr. Scalise (continuing). Percent increase----
    Ms. McCarthy (continuing). Economy.
    Mr. Scalise (continuing). In electricity prices in the 
Midwest alone. It has happened. This isn't a study. That 
happened in the Midwest. Anyway, if you can look at this 
study----
    Ms. McCarthy. I would be more than----
    Mr. Scalise (continuing). In relation to these proposed----
    Ms. McCarthy. Yes.
    Mr. Scalise (continuing). Rules, please----
    Ms. McCarthy. Let me do that.
    Mr. Scalise (continuing). These jobs.
    Ms. McCarthy. OK. That would be great.
    Mr. Scalise. Yield back the balance of my time.
    Mr. Whitfield. Gentleman's time has expired, and that 
concludes the----
    Mr. Tonko. Mr. Chair?
    Mr. Whitfield. Yes?
    Mr. Tonko. If I might, I would just like to thank the 
Administrator for her presentation today and her dialogue with 
the committee. But I think there were a number of instances 
where members had asked the witness questions, and then didn't 
give her the opportunity to respond to that, so I think we 
should extend the opportunity, if she so chooses, to respond to 
any of those situations today, and would also make the plea to 
the committee that we interact with these witnesses in a much 
more courteous and substantive style so that we can achieve 
what we are all hoping to achieve. And I would yield back.
    Mr. Whitfield. Well, I think most people were pretty 
courteous today, and I do know that there are questions that 
were submitted that you said you would be getting back to the 
committee with answers. And if there is some response that you 
feel like you were not given an opportunity to make, I will be 
happy to give you that opportunity now to respond.
    Ms. McCarthy. Well, Mr. Chairman, first of all, you are 
always a gentleman, and I appreciate that very much, and the 
only issue that I didn't get a chance to talk about a little 
bit more specifically that I wish I would have is the issue 
that Mr. Griffith pointed out, on this 111, 112 issue.
    And the only thing I would have pointed out is that he was 
quoting from our defense of the Clean Air Mercury Rule. And the 
reason why we were defending that way is because the conflict 
occurred in CAMR that does not occur in 111(d) in our Clean 
Power Plan because that was about the same source category, the 
same pollutant, being regulated under two different sections. 
We do not have that conflict here, so we do not believe that 
that issue is really going to impact the legal viability of the 
Clean Power Plan. But I thank you very much for raising this, 
and for allowing me the honor to testify before you today.
    Mr. Whitfield. Well, I think one thing that is certain is 
that courts are unpredictable, and we never know precisely how 
they are going to decide, so----
    Ms. McCarthy. That is for sure. We can all agree on that.
    Mr. Whitfield. But we do thank you for being with us today, 
and taking the time to discuss the fiscal year 2016 budget, and 
look forward to working with you as we move forward. That will 
conclude today's hearing. The record will remain open for 10 
days, and we do look forward to getting the responses that you 
committed to giving back----
    Ms. McCarthy. Thank you, sir.
    Mr. Whitfield (continuing). To the committee.
    Ms. McCarthy. Thank you.
    Mr. Whitfield. Thank you. Meeting is adjourned.
    [Whereupon, at 12:52 p.m., the subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
      [Ms. McCarthy's answers to submitted questions have been 
retained in committee files and also are available at  http://
docs.house.gov/meetings/IF/IF03/20150225/103014/HHRG-114-IF03-
Wstate-McCarthyG-20150225-SD003.pdf.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
